Office of
Inspector
General
Semiannual
Report to
the Congress
April 1, 1983 to
September 30, 1983

November 1, 1983
                 General        Office of
                 Services       Inspector
                 Administration General     Washington, DC 20405




  OCT 3 I 1983

Honorable Gerald P. Carmen
The Administrator
General Services Administration
Washington, D.C. 20405

Dear Mr. Carmen:

The enclosed semiannual Report to the Congress for the six-
month period ended September 30, 1983 is submitted pursuant to
Public Law 95-452, the Inspector General Act of 1978.
Section 5(b) of that Act requires that you submit this report
to the Congress within 30 days, together \lith any comments you
choose to make.

I call your special attention to the Introduction and Overview
of the report, where OIG act i vi ty is discussed in terms of
long-term OIG goals.  Many of the OIG goals reflect concerns
that you and I have shared over the past several years, and I
am very pleased to report the progress we've made in meeting
those goals. This report denonstrates better focused OIG cover-
age of GSA programs; increased OIG productivity; expanded OIG
activities to prevent the occurrence of fraud, waste, and abuse;
and greater collaboration between the audit and investigative
functions.

The resulting benefits were substantial during the reporting
period. A few quantifiable ones include: decisions to save
the Government a total of almost $50 million; sustained audit
savings that represent a return of $7 for every dollar budgeted
to Audits; 48 criminal convictions; 55 contractor suspensions
and debarments; and 60 disciplinary actions against GSA
employees.

As detailed in the Introduction and Overview, these statistics
reflect very significant productivity gains over the last
several years.

Sincerely,




         rrit2~~
     H A. SICKON
          General

Enclosure
INTRODUCTION AND OVERVIEW
A. Introduction
This report, which is submitted pursuant to Section 5      views disclosed a number of national and regional is-
of Public Law 95-452, chronicles the activities of the     sues affecting this Service's ability to provide space in
Office of Inspector General (OIG) during the period        a timely and efficient manner, as well as a number of
April 1, 1983 through September 30, 1983. It is the        areas for greater economy in PBS operations.
tenth such report since the appointment of GSA's first     In Section II of this report, we highlight findings in the
Inspector General in Fiscal Year 1979.                     leasing area that indicate GSA may have problems
                                                           managing its future leasing workload. We also identify
B. Overview                                                savings of $19 million that could be achieved through
The activities and accomplishments summarized in           constructing and effectively utilizing a new Federal
this Report to the Congress reflect the GSA ~iG's com-     office building; savings of $6.5 million that could be
mitment to fully meeting its responsibilities under the    achieved through a management commitment to exer-
Inspector General Act of 1978. Several years ago, this     cise a lease renewal option and its ability to backfill
commitment led us to undertake a long-term organiza-       that space; a cost avoidance of $800,000 achieved
tional development program. The overall objectives of      through prompt management action in response to
the program were to enhance our traditional audit and      OIG recommendations on the purchase of a leased
investigative activities, and move decisively into the     supply depot; and illegal/improper activities on the
several non-traditional areas covered by the Inspector     part of PBS contractors which involved labor law vio-
General Act. Specifically, we have focused on:             lations and false claims.
    • Improving GIG audit and investigative cov-
       erage;                                              Office of Federal Supply and Services
    • Increasing OIG productivity;                         The OIG directed 26 percent of its staffhours to reviews
    • Actively preventing fraud, waste, and abuse;         of FSS, the GSA component charged with operating a
                                                           Governmentwide service and supply system. We is-
    • Increasing the quantity and quality of collabora-    sued 131 audit reports and conducted 255 investiga-
       tion between audit and investigative functions;     tions relating to FSS operations.
       and
                                                           In Section II, we highlight an audit of a motor pool that
    • Establishing management support systems that         disclosed serious operational deficiencies, and a re-
       provide state-of-the-art resources and skills to    gional audit of inventory management activities that
       GIG staff.                                          showed internal control weaknesses were inhibiting
Within this context, the following paragraphs sum-         efficient and effective response to GSA customers. We
marize our accomplishments for the period and detail       also detail OIG efforts leading to a $650,000 settlement
our continuing efforts in support of these objectives.     arising from defective pricing/price reduction viola-
                                                           tions on a multiple award schedule contract; a
1. OIG Coverage of GSA Programs                            $384,540 sustained cost avoidance on a procurement
The ~IG's commitment to improved coverage of GSA           for fire retardants; and the conviction of a firm and its
programs has entailed development of inventories of        former president on charges of false statements and
auditable GSA contracts and internal entities, as well     false advertising.
as implementation of an audit planning system geared
to the most efficient and effective targeting of OIG       Office of Information
resources. We believe that the coverage achieved dur-      Resources Management
ing the reporting period reflects positively on our
                                                           The OIG directed almost 8 percent of its staffhours to
efforts in this area.                                      reviews of OIRM, the GSA component responsible for
The OIG directed approximately 89 percent of its           managing a Governmentwide program for automated
stafthours to reviews of the Public Buildings Service      data processing (ADP) and telecommunications
(PBS), the Office of Federal Supply and Services (FSS) ,   equipment and services. We issued 29 audit reports
the Office of Information Resources Management             and conducted 36 investigations relating to OIRM
(OIRM) , the Federal Property Resources Service            operations.
(FPRS) , and the Office of Comptroller. The remaining      In Section II, we highlight OIG efforts leading to settle-
direct staffhours were distributed among a variety of
                                                           ments of over $3 million on two civil fraud cases in-
other GSA programs. Significant GIG activity in the
                                                           volving GSA contractors; an audit disclosing the need
major GSA program areas is discussed in the following
                                                           for improvements in the ADP Fund; and recommenda-
paragraphs.                                                tions for alternative means of financing ADP support
Public Buildings Service                                   on a multi-user system.
The OIG directed almost 42 percent of its stafthours to
reviews of PBS, the GSA component charged with             Federal Property Resources Service
managing the Federal civilian space inventory. We          The OIG directed 3 percent of its staffhours to reviews
issued 249 audit reports and conducted 375 investiga-      of FPRS, the GSA component responsible for real prop-
tions relative to PBS operations this period. Our re-      erty disposal activities and the stockpile program. We
     issued seven audit reports and conducted 36 inves-             • 32 criminal case referrals accepted for prosecu-
     tigations relating to FPRS operations.                            tion;
     In Section II, we summarize two significant audits rel-        • 80 indictments/informations and convictions;
     ative to stockpile operations. The first identified major      • 13 civil case referrals accepted for civil litiga-
     discrepancies between official inventory records and              tion;
     subsidiary depot inventory records. The second ques-
     tioned costs of over $3.2 million on a $56 million baux-       • 55 contractor suspensions and debarments;
     ite procurement.                                               • 137 administrative case referrals involving GSA
                                                                       employees and programs;
     Office of Comptroller
                                                                    • 29 reprimands, 14 suspensions, 1 demotion, and
     The OIG directed 10 percent of its stafthours to reviews          16 terminations of GSA employees; and
     of GSA's Office of Comptroller, which is responsible
     for financial reporting, accounting, and management            • 608 Hotline calls and letters, 17 GAO referrals,
     accounting support within the agency. OIG coverage                and 18 referrals from other agencies processed.
     resulted in 15 audit reports and 55 investigations.         Detailed information is provided in Sections ill and rv.
     Three audits, highlighted in Section II, illustrate the
     diversity of findings disclosed this period: an admin-
     istrative fund control violation in the Construction        3. Prevention Activities
     Services Fund; an opportunity to save approximately         As detailed in Section VI, we expanded our program to
     $214,900 through changes in the payroll process; and        prevent the occurrence of fraud, waste, and abuse dur-
     one region's need to improve compliance with the            ing the reporting period. This program has previously
     Prompt Payment Act.                                         entailed reviewing legislation and regulations,
                                                                 conducting Integrity Awareness Briefings, and per-
                                                                 forming assessments of new or proposed programs,
                                                                 systems, and transactions. This period we supple-
     2. DIG Productivity                                         mented those activities by:
     The ~iG's efforts to increase productivity have in-
     volved clearer definition of performance goals, better          • Conducting a major survey of 38 GSA financial
                                                                       management systems, to (1) alert GSA manage-
     management information systems, and closer tracking
                                                                       merit to potential problems in this area, and
     of individual assignments. The following data indi-
                                                                       (2) aid management in its preparation for the
     cate that the emphasis on productivity has had a mea-
                                                                       Federal Managers' Financial Integrity Act certi-
     surable payback.
                                                                       fication of internal accounting controls on
         • Audit reports issued per auditor is up 33 percent           December 31, 1983;
            in Fiscal Year 1983 as compared to Fiscal Year           • Increasing GSA employee awareness through
            1982 (3.23 vs. 2.42 reports).                              issuance of brochures on the OIG Hotline and
         • Recommended savings per auditor is up 18 per-               the OIG's May 1, 1983 Report to the Congress;
            cent in Fiscal Year 1983 as compared to Fiscal             and
            Year 1982 ($587,875 vs. $498,533).                       • Conducting an interdisciplinary operational
         • Sustained audit savings per auditor is up 39 per-           survey of a program area that has had a history
            cent in Fiscal Year 1983 as compared to Fiscal             of fraud, and has therefore been the subject of
            Year 1982 ($472,475 vs. $338,827).                         Congressional concern. (See the following sec-
         • Referrals (criminal, civil, and administrative)             tion for a description of this survey.)
            per investigator is up 101 percent in Fiscal Year
            1983 as compared to Fiscal Year 1982 (5.86 vs.
            2.92 referrals).                                     4. Collaboration Between Audit and
         • Criminal referrals per investigator is up 168 per-         Investigative Functions
            cent in Fiscal Year 1983 as compared to Fiscal       As detailed in Section VII, OIG efforts to foster audit!
            Year 1982 (2.17 vs. 0.81 referrals).                 investigative coordination and collaboration have in-
                                                                 cluded organizational changes; mandatory interdisci-
         • Criminal/civil recoveries per investigator/attor-
            ney is up 519 percent in Fiscal Year 1983 as com-    plinary meetings and telephone conferences; joint
            pared to Fiscal Year 1982 ($55,921 vs. $9,038).      participation in the development of OIG policy; and
                                                                 clear direction on coordination of audit and inves-
         • Indictments!convictions per investigator is up        tigative work in process. This period, our efforts
            131 percent in Fiscal Year 1983 as compared to       resulted in several highly significant accomplish-
            Fiscal Year 1982 (1.25 vs. 0.54 indictments/         ments, including the following;
            convictions).
     The productivity statistics reflect the following ac-           • A team of auditors, investigators, and inspectors
     complishments this period:                                        undertook an indepth, collaborative review of a
                                                                       major buildings management field office in
         • 446 audit reports;                                          Washington, D. C. The purposes of the survey
         • Recommended savings of $85.5 million, which                 were to focus attention on activities with a his-
            translates to recommended savings of over $25              tory of fraud, and to respond to Congressional
            for every dollar spent in direct audit time;               concerns that followup was being performed.
         • Sustained savings of $43.6 million, or almost $7            The team found that previous weaknesses had
ii          in savings for every dollar budgeted to Audits;            largely been corrected, and that the office was
     generally well run and efficient. At the same        5. Management Support Systems
     time, the survey generated five investigative        As detailed in Section VITI. our overall accomplish-
     referrals, three audit referrals, and a number of    ments have been supported by a wide range of man-
     recommendations to management on needed              agement policies and systems, many of which have
     operational improvements.                            been discussed previously or in past Reports to the
                                                          Congress. This period, we concentrated on imple-
CD   Collaboration between-our Offices of Audits and      men?ng an internal quality assurance program, and
     Investigations on a price reduction/defective        making sure that OrG staff have the professional
     pricing case resulted in a negotiated settlement     knowledge and skills they need to carry out their
     of $2 million. An initial audit of the contractor    responsibilities.
     was referred, through an interdisciplinary meet-
     ing, for investigation; and the investigation        Our internal quality assurance efforts included pub-
     results were then referred back for additional       lication of a comprehensive OrG policy and proce-
     audit work. In the process, the contractor's offer   dures manual, and implementation of a formal pro-
     of settlement climbed from $125,000 to $1.1 mil-     gram of field office inspections. We sought to enhance
     lion to $2 million. Although this amount has         orC? pro~essional knowledge and skills by conducting
     ?een reported as a sustained audit cost recovery,    nationWIde courses on GAO audit standards and pro-
     It represents an achievement shared equally          fessional writing techniques; sponsoring training for
     among our Offices of Audits, Investigations, and     top OrG management in effective presentations; and
     Counsel to the rG. It also reflects cooperation on   sending the first contingent of OIG auditors and inves-
     the part of GSA management and the Depart-           tigators for training in the use of microcomputers.
     ment of Justice.




                                                                                                                    iii
TABLE OF CONTENTS
INTRODUCTION AND OVERVIEW                                              SECTION VI - PREVENTION
                                                                       ACTIVITIES ................................                      17
REPORTING REQUIREMENTS . . . . . . . . . . . . .. vi
                                                                         A. Background ...........................                      17
SECTION I - ORGANIZATION,                                                B. Definition .............................                    17
STAFFING AND BUDGET..................                              1
                                                                         C. Anticipation ..........................                     17
  A. Organization ..........................                       1
  B. Office Locations .......................                      1     D. Education .............................                     17
  C. Staffing and Budget . . . . . . . . . . . . . . . . . . . .   1     E. Communication.......................                        18
  D. Staffing/Budget Issues .. . . . . . . . . . . . . . . . .     1   SECTION VII - COORDINATION ............ 19
SECTION 11- SIGNIFICANT PROBLEMS,                                         A. Introduction ........................... 19
ABUSES, DEFICIENCIES AND                                                  B. Coordination Initiatives ................ 19
RECOMMENDATIONS ., . . . . . . . . . . . . . . . . . . ..          2      C. Coordination Achievements ........... " 20
  A. Public Buildings Service ...............                      2   SECTION VIII - OTHER ACTIVITIES .. . . . .. 22
  B. Federal Supply and Services ........... '.                    3
                                                                         A. DIG Management Initiatives ............ 22
  C. Information Resources Management ... "                        4
                                                                         B. Projects Sponsored by the PCIE ......... 23
  D. Federal Property Resources Service. . . . ..                  5
  E. Comptroller ...........................                       6   SECTION IX - STATUS OF SIGNIFICANT
                                                                       RECOMMENDATIONS MADE IN
SECTION III - AUDIT
                                                                       PREVIOUS REPORTS. . . . . . . . . . . . . . . . . . . . . . ..   24
ACCOMPLISHMENTS ......................                             7
                                                                         A. Significant Recommendations Which
   A. Summary of Accomplishments .........                         7        Have Not Been Resolved or Which Have
   B. Federal Managers' Financial                                           Not Been Satisfactorily Implemented ....                    24
      Integrity Act .......................... 7                         B. Significant Recommendations Being
   C. Contract and Internal Audit Activity. . . . . 7                       Implemented According to Established
   D. Audit Resolution and Followup ......... 10                            Milestones ............................                     24
SECTION IV - INVESTIGATIVE                                               C. Significant Recommendations Not Being
ACCOMPLISHMENTS ................... 13                                      Implemented for Reasons Beyond GSA's
                                                                            Control ...............................                     26
   A. Summary of Accomplishments ......... 13
   B. Investigative Activity .................. , 13
   C. Criminal and Civil Actions ............. 14
   D. IG Subpoenas ......................... 15
SECTION V - REVIEW OF                                                  Appendix I - Audit Report Register ......... 29
LEGISLATION AND REGULATIONS. . . . . . .. 16                           Appendix II - Delinquent Debts ............ 42
  A. LegislationJRegulations Reviewed ....... 16                       Appendix III - Summary of OIG
  B. Significant Comments ................. , 16                       Performance in Fiscal Year 1983 ............ 43                       v
     REPORTING REQUIREMENTS
     The table below cross-references the reporting require-                       Report No. 96-829 relative to the 1980 Supplemental
     ments prescribed by the Inspector General Act of 1978                         Appropriations and Rescission Bill is also cross-refer-
     to the specific report pages where they are addressed.                        enced to the appropriate page of the report.
     The information requested by the Congress in Senate


                                                       SOURCE                                                                 PAGE

         Inspector General Act
            1. Section 4(a)(2)-Review of Legislation and Regulations. . . . . . . . . . . . . .                  16
            2. Section 5(a)(1)-Significant Problems, Abuses, and Deficiencies. . . . . .                         2-6
            3. Section 5(a)(2) - Recommendations With Respect to Significant
               Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  2-6
            4. Section 5(a)(3) - Prior Recommendations Not Yet Implemented .......                              24-26
            5. Section 5(a)(4)-Matters Referred to Prosecutive Authorities .........                             14
            6. Sections 5(a)(5) and 6(b)(2)-Summary of Instances Where
               Information Was Refused this Period ............................... No Instances this Period
            7. Section 5(a)(6)-List of Audit Reports. . .. . . . . . . . . . . . . . . . . .. . . . . . . .     29-41

         Senate Report No. 96-829
           1. Resolution of Audits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   10-11
           2. Delinquent Debts ...............................................                                                 42




vi
SECTION I - ORGANIZATION, STAFFING
AND BUDGET
Pursuant to Public Law 95-4-52, the Inspector General
Act of 1978, an Office of Inspector General (OIG) was
                                                            B. Office Locations
                                                            The OIG is headquartered in Washington, D.C., at
established within the General Services Administra-
                                                            GSA's Central Office building. Field audit and inves-
tion (GSA) on October 1, 1978, As currently config-
                                                            tigation offices are maintained in each of GSA's
ured, the OIG is divided into five offices which            regional headquarters - Boston, New York, Phila-
function cooperatively to perform the missions legis-       delphia, Atlanta, Chicago, Kansas City, Ft. Worth, Den-
lated by the Congress,                                      ver, San Francisco, Auburn, and Washington, D.c.
                                                            Resident investigation offices are located in Cleveland,
                                                            St. Louis, Los Angeles, and San Juan, Puerto Rico. The
                                                            San Juan office also includes an audit component.
A. Organization                                             C. Staffing and Budget
The OIG consists of five functional elements, These are
the Offices of Audits; Investigations; Counsel to the       The approved Fiscal Year 1983 budget for the GSA OIG
Inspector General; Policy, Plans, and Management Sys-       was $19.2 million. This figure provided for an
tems; and Executive Director.                               approved staffing level of 466 full-time equivalent
The Office of Audits provides comprehensive internal        (FTE) positions.
(management) and external (contract) audit coverage
of GSA programs and operations. Headquarters divi-          D. Staffing/Budget Issues
sions, structured to correspond with GSA's major            On July 5, 1983, a Budget Review Board was estab-
functional areas, manage the audit workload prin-           lished within the GSA with an apparent mandate to
cipally performed by 11 field offices.                      review all agency budget requests. The Inspector Gen-
                                                            eral advised the Administrator on July 12, 1983 that
The Office of Investigations manages a nationwide
                                                            any such review of the ~iG's budget request by com-
program designed to prevent and detect illegal and/or
                                                            ponents of the agency below the level of the Admin-
improper activities involving GSA programs, person-
                                                            istrator or his Deputy would put board members in a
nel, or operations. Desk officers at headquarters coordi-
                                                            potential conflict of interest situation. He further ad-
nate the investigative activity of 11 field investigation
                                                            vised that such reviews would, at the very least, give
offices and four resident offices.
                                                            the appearance of conflict with the intent of the Inspec-
Counsel to the Inspector General provides expert legal      tor General Act of 1978 and with the Congressional
advice relative to matters under OIG review. Staff attor-   action that established the OIG appropriation as a dis-
neys manage the civil referral system, review existing      crete budget line item in Fiscal Year 1979. The Inspec-
and proposed legislation and regulations, and prepare       tor General declined participation in the proceedings
OIG subpoenas as required.                                  of the GSA Budget Review Board. The Senate Appro-
The Office of Policy, Plans, and Management Systems         priations Committee, in its report number 98-186
constitutes a centralized planning and assessment           dated July 20, 1983, agreed with our position on this
function which oversees and reports on the overall          matter.
operations of component offices. In addition, the staff     On July 30,1983, the Administrator and the Inspector
coordinates specialized studies relative to fraud pre-      General met to discuss the ~iG's Fiscal Year 1985
vention and provides data systems support to all ele-       budget request. At this meeting, the Administrator
ments.                                                      stated that all OIG budget reviews would be conducted
The Executive Director provides centralized admin-          exclusively by him (or his Deputy), except for tech-
istrative support.                                          nical reviews by the Office of Budget.




                                                                                                                        1
    SECTION II - SIGNIFICANT PROBLEMS,
    ABUSES, DEFICIENCIES AND
    RECOMMENDATIONS
    This section details the more significant findings, rec-    may have been justified in selected cases, the overall
    ommendations, and criminal/civil actions of this            numbers indicate problems in the leasing process.
    period by GSA Service. It shows that 89.4 percent of        Moreover, as the full impact of the Governmentwide
    the GIG's audit and investigative resources were            space reduction program is felt, it is expected that the
    applied in the Public Buildings Service (pp. 2-3), the      use of short-term extensions will grow as will the
    Office of Federal Supply and Services (pp. 3-4), the        number of holdover leases.
    Office of Information Resources Management                  In our opinion, GSA will encounter severe problems in
    (pp. 4-5), the Federal Property Resources Service           managing its lease workload in the near future. As
    (pp.5-6) and the Office of Comptroller (p-6).               these extensions and other leases expire, and new
    The remaining resources were generally applied              space requests are received, the regions may not have
    within other GSA program areas.                             the resources to properly execute this workload. There-
                                                                fore, on September 19, 1983, we recommended that
    A. Public Buildings Service                                 lease extensions be monitored to identify the reasons
    The Public Buildings Service (PBS) is responsible for       for their use and to establish their necessity. We further
    most of the civilian agencies' inventory of space           recommended that an immediate review be under-
    nationwide. Its responsibilities extend from construct-     taken to determine the adequacy of regional leasing re-
    ing, purchasing, and leasing space for Government           sources in light of current and projected workloads.
    use to maintaining and protecting that space. In Fiscal     The Administrator has not yet responded to the report.
    Year 1983, the total available funding authority of the
    Federal Buildings Fund was approximately $2.5 bil-          Lease Renewal Option
    lion. Of this amount, approximately $1.1 billion was        As part of our ongoing review of GSA's efforts to
    obligated in the second half of the fiscal year.            improve space utilization and reduce space costs, we
    Commensurate with this level of activity, the GIG           identified a $6.5 million potential savings opportunity.
    devoted some 78,225 staflhours or 41.5 percent of its       We found that management was considering waiving
    total audit and investigative resources to reviews of       a lease renewal option because 202,461 square feet
    PBS. We issued 249 audit reports and conducted 375          (about 63 percent of the leased space) had been vacant
    investigations relative to PBS operations this period.      since March 1983. Yet, we found that to lease compara-
                                                                ble space in the same area would cost approximately
    Holdover Leases and                                         $4 to $8 more per square foot.
    Lease Extensions                                            On July 14, 1983, 11 days before expiration of the
    At the request of the Administrator, we reviewed the        renewal option, we recommended that management
    status of holdover leases and lease extensions in GSA's     exercise the option; relocate tenants from a nearby
    regional offices. Although our original objective was to    facility to this space; and begin an aggressive program
    determine whether these leases were being accurately        to backfill the remaining vacant space.
    reported, the significant number of short-term exten-       Management concurred in our findings and exercised
    sions (12 percent of the entire lease inventory) indi-      the option on July 22, 1983. Both the Commissioner,
    cated the need to review this situation.                    PBS, and the Regional Administrator have agreed to
    The PBS leasing handbook generally provides that            implement the remaining recommendations.
    "holding over" in space after expiration of a lease,
    without execution of a lease to provide for continued       Proposed Federal Building
    occupancy, must be avoided. Our review disclosed that       in Boston
    these short-term extensions may have been awarded           At the request of the Administrator, the GIG reviewed
    in order to remove leases from a holdover status or to      the advisability of proceeding with plans to construct
    avoid a holdover status entirely. These decisions may       a new Federal office building in Boston, Massachu-
    have been influenced by an overall management               setts. The Administrator's request resulted from delays
    emphasis on eliminating holdover tenancies that             in delivering the site to GSA and questions regarding
    included measuring performance based upon the               the need for such a facility. Our audit found that GSA
    number of holdover tenancies.                               should continue its efforts, provided that certain
    We believe that there are potential problems associated     decisive actions were taken.
    with short-term leasing actions. Notably, they can be       In our May 11, 1983 report, we recommended that GSA
    expensive; they increase workloads because acquisi-         not accept the site until it was fully cleared. Pending
    tion actions must be reinstituted in a short time period;   delivery of the site, we recommended that con-
    and, in the process, GSA may be missing oppor-              struction contract bids be extended at the same price.
    tunities to buy facilities or negotiate the better terms    We further recommended that a space utilization rate
2   now available in the space market. While extensions         of 13 5 square feet per person be achieved for this build-
ing and thdt effective space management techniques           Our findings were detailed in a report to the Admin-
be employed relative to all space in the region's inven-     istrator on July 27, 1983. No recommendations were
tory. We estimate that these actions will save the Gov-      included in this report since all of our concerns were
ernment $19 million over the life of the building.           addressed during the course of the review.
The Regional Administrator concurred in our findings
and recommendations. He toek the following actions:
                                                             Sentencing and Debarment of
the building site was not accepted until July 1,1983, at     Cleaning Contractor
which time it was fully cleared; construction bids           On July 18, 1983, the owner/president of a cleaning
were extended; and the occupancy plan for the build-         firm and the firm's project manager were convicted on
ing is being reworked to achieve a space utilization         charges of mail fraud stemming from the submission
objective of 135 square feet per person. Additionally,       of false staffhour reports on GSA janitorial contracts.
the Regional Administrator has agreed to make the effi-      The owner/president was sentenced to 2.5 months
cient use of space one of the region's highest priorities.   imprisonment; placed on probation for four years;
                                                             fined $7,000; and ordered to make restitution in the
Mishandling of                                               amount of $20,000. The project manager was fined
Checks Worth $1.5 Million                                    $750 (suspended) and placed on three years probation.
An investigation into the circumstances surrounding          Both the firm and its president have been debarred
the mishandling of a $1.3 million warrant and four           from doing business with the Government for three
other checks valued at $247,777 resulted in the sus-         years beginning May 17,1983.
pension of three GSA employees without pay for 14            In related actions, two other supervisors have already
calendar days. The investigation disclosed that the          been convicted. The first received two years probation
mishandling, which involved the loss of $75,000 in           and a $1,000 fine, while the second received a one year
interest because the checks were left undeposited in a       suspended sentence.
safe for more than five months, resulted primarily
from the lack of written procedures and a tracking sys-      $184,895 Withheld for
tem; confusion arising from the realignment of func-         Labor Law Violations
tional responsibilities; and doubling of workload.           As a result of an investigation into alleged wage under-
A concurrent audit reviewed the internal controls gov-       payments to contractor employees working on GSA
erning the processing of real property sales receipts.       construction sites, the Chief of a GSA Regional Design
We audited transactions valued in excess of $79 mil-         and Construction Contracts Branch has directed that
lion that occurred between March 1, 1982 and March           $184,895 be transferred to the Comptroller General of
31, 1983. Our report, which will be released during the      the U. S. This money, which was withheld from the
first six months of Fiscal Year 1984, will be sum-           contractor due to the referenced violations of the
marized in our next semiannual report.                       Davis-Bacon Act and the Contract Work Hour and
                                                             Safety Standards Act, will be disbursed to 51 employ-
Purchase of Supply Depot                                     ees of the firm.
At the request of the Administrator, we monitored the
negotiations for the purchase of the leased GSA supply
depot in Duluth, Georgia. This transaction ultimately
involved the transfer of the GSA supply depot in             B. Federal Supply and Services
Savannah, Georgia as well.                                   The Office of Federal Supply and Services (FSS) is
Prior to our involvement, GSA regional officials had         responsible for operating a Governmentwide service
negotiated a settlement price for the Duluth facility        and supply system. Each year, it contracts for and dis-
and recommended its approval. During our review, we          tributes billions of dollars worth of supplies, mate-
recommended that the Regional Administrator con-             rials, and services for customer agencies. FSS also
tract for a second appraisal of the facility. This ap-       provides automotive and transportation services and
praisal resulted in a substantially lower estimate of        controls GSA's personal property program. In the sec-
value. As a result, GSA was able to negotiate a much         ond half of Fiscal Year 1983, FSS obligated approxi-
lower settlement price than that originally recom-           mately $69.4 million in direct operating expense
mended for approval.                                         appropriations. Sales through the General Supply
                                                             Fund during the same period exceeded $922 million.
Further, our review disclosed that the Georgia Ports
Authority (GPA) had expressed an interest in acquir-         Our audit and investigative staffs devoted some 49,846
ing GSA's Savannah supply depot as early as 1980.            staffhours or 26.5 percent of our total resources to FSS
Before OIG involvement, this matter had not been             this period. We issued 131 audit reports and conducted
seriously addressed. We recommended that the                 255 investigations dealing with FSS operations and
Regional Administrator actively involve GPA in the           programs.
negotiations process.                                        Inventory Management
Through the cooperative efforts of GSA manage-               A regional audit of selected inventory management
ment and the GIG, GSA would be able to acquire               activities found that internal control weaknesses were
a needed depot, thereby removing over one million            inhibiting efficient and effective response to customer
square feet from the leased space inventory, and             demands. Specifically, we found that numerous stock
profitably dispose of another facility that was no           replenishments were not initiated in a timely manner,
longer necessary. This cooperation would save                procurements totaling over $160,000 were initiated in
the Government approximately $800,000 in the                 lieu of interwarehouse transfers of stock, and insuffi-
nrocp.ss.                                                    cient nrioritv was being: g:iven to direct deliveries.
    Because inadequate stock replenishment can create            mitted inaccurate commercial pnclllg data that
    and perpetuate customer backorders, we recom-                resulted in the negotiation of contracts that were not as
    mended on June 7, 1983 that inventory management             favorable to the Government as they might have been.
    procedures be strengthened; an effort be undertaken to       The Department of Justice was prepared to file a civil
    identify customers for a preplanned direct delivery          suit when the parties agreed to a settlement this period
    program; and a review of slow-moving items be initi-         in the amount of $650,000. The first payment of
    ated to determine if these needs could be met more           $200,000 was received in April 1983. Subsequent pay-
    economically by offering them on a non-stock basis.          ment of $225,000 is due on June 1, 1984; the balance
    The Assistant Regional Administrator for FSS and the         (plus interest) is due on June 1, 1985.
    Acting Regional Administrator generally concurred in
    the findings and recommendations.                            Preaward Audit of Pricing Proposal
                                                                 A preaward audit of a $3.2 million pricing proposal
    Questionable Procurements by                                 for fire retardants resulted in a recommended cost
    Motor Pool                                                   avoidance of $560,325. The costs questioned in our
    At the request of the Regional Administrator, our audit      April 8, 1983 report primarily involved proposed
    and investigation staffs jointly reviewed the operations     direct materials costs, manufacturing expenses, and
    of a regional motor pool. The audit phase generally          general administrative expenses.
    focused upon the efficien," and effectiveness of inter-      Approximately $384,540 was sustained in negotia-
    nal controls governing inventory and procurement             tions with the contractor. The amount not sustained
    procedures, and the administration of term contracts.        principally resulted from a reduction in the estimated
    The concurrent investigation focused upon potential          sales under the contract.
    criminal activity and/or violations of GSA's Standards
    of Conduct.                                                  Machinery Wiping Towel Deficiency
    While no conclusive evidence of criminal activity or         Based upon a letter of complaint alleging that machin-
    Standards of Conduct violations was found, serious           ery wiping towels supplied under a GSA contract did
    operational deficiencies were disclosed in procure-          not meet the requirements of the purchase description,
    ments and the administration of term contracts. We           we reviewed this procurement action. Our review
    found that: actual installation of parts could not be ver-   showed that the firm had shipped towels that fre-
    ified in over 58 percent of the repairs reviewed; ade-       quently did not meet the dimensional requirements of
    quate justifications for these repairs could not be          the contract and had taken advantage of a ten percent
    located; other excessive or questionable repairs were        dimensional tolerance authorized in the purchase
    performed; and prices for parts under term contracts         description by consistently shipping towels that fell
    were more expensive than those available through the         just within its levels. Moreover, we found that this tol-
    FSS schedule or auto parts dealers.                          erance level was excessive and too many types of tow-
                                                                 els were available through the stock system.
    On April 26, 1983, we recommended that the Regional
    Administrator take action to ensure that motor pool          On April 4 , 1983, we recommended that FSS suspend
    personnel adhere to applicable procedures when pro-          the firm's quality assurance manufacturer's agree-
    curing repairs, parts, and services; vehicle files are       ment; withhold further issuance of its stock from GSA
    adequately documented; and all work is inspected/            depots; minimize excessive tolerance levels in its pur-
    verified.                                                    chase descriptions for machinery wiping towels;
                                                                 allow the use of a variation in quantity clause only
    The Regional Administrator concurred in our findings         when clear and convincing factors are present; and act
    and recommendations.                                         to reduce the numbers/types of towels available
    Supply Contractor Pleads Guilty                              through GSA.
    A medical supply contractor pled guilty to four counts       Management concurred in our findings and has
    of false statements and the former president of the firm     agreed to implement our recommendations with the
    pled guilty to four counts of false advertising as a         exception of our recommendation regarding the varia-
    result of a joint investigation conducted by the OIG         tion in quantity clause. Management will continue to
    and the Defense Contract Investigative Service. The          allow its use but will monitor usage more closely. The
    investigation disclosed that the subjects falsely cer-       OIG concurred in this alternative action. Implementa-
    tified that the medical instruments supplied under           tion of all of these actions will save $78,600 annually.
    GSA and Defense Logistics Agency contracts were              An ensuing investigation of this situation resulted in a
    American-made in accordance with the provisions of           civil referral. The Assistant U.S. Attorney accepted
    the Buy American Act.                                        the case for litigation. Ultimately, the dispute was set-
    Sentencing is scheduled for October 17, 1983. The            tled out of court; the contractor compensated GSA in
    company faces a maximum fine of $40,000, while its           the amount of $28,782.
    former president could be sentenced tl7J two years
    imprisonment and fined $20,000.                              C. Information Resources
    $650,000 Settlement                                          Management
    As a result of an audit and a subsequent investigation       The Office of Information Resources Management
    conducted during 1980 and 1981, a defective pricing          (OIRM) is responsible for coordinating and directing a
    case involving a multiple award schedule contractor          comprehensive Governmentwide program for the
    was referred to the Department of Justice for civil fraud    management, procurement, and utilization of auto-
4   prosecution. Our review showed that the firm had sub-        mated data processing (ADP) and telecommunica-
tions equipment and services. In the second half of         increases of over 69 percent in user rates. Payments to
Fiscal Year 1983, OIRM obligated approximately $21.5        OPM for RAMUS-II support were approximately $2.1
million in direct operating expense appropriations.         million in Fiscal Year 1981 and $2.2 million for Fiscal
Sales via the Federal Telecommunications Fund and           Year 1982.
the ADP Fund during the same period exceeded $497           Through a preliminary letter dated December 13. 1982,
million.                                                    we recommended that the Assistant Administrator for
Collectively. some 14,555 staffhours or 7.7 percent of      Information Resources Management consider alter-
our total work effort this period was directed to pro-      natives to the OPM agreement to support RAMUS-II.
grams or activities of OIRM. We issued 29 audit reports     These alternatives included: using excess processing
and conducted 36 investigations relative to its opera-      capacity on existing GSA equipment; obtaining new
tions.                                                      hardware through lease or purchase; and procuring
                                                            commercial time-sharing services.
ADP Fund Billings and Receivables
A review of the ADP Fund, a revolving fund managed          The Assistant Administrator considered these and
by the GSA to finance Governmentwide ADP services           other alternatives. Ultimately, the GSA/OPM agree-
on a reimbursable basis, disclosed that despite recent      ment was cancelled and users now have a direct rela-
efforts to improve its financial management, addi-          tionship with OPM rather than going through GSA.
tional actions were needed to improve billing and col-      This action will result in savings to GSA of about
                                                            $980,000 annually.
lection processes, expedite the conversion of re-
ceivables to cash, and return the Fund to a more viable     Our final audit report was issued on August 30, 1983.
financial position. In our June 30, 1983 report, we rec-    We are awaiting the Assistant Administrator's
ommended that the Assistant Administrator for Infor-        response.
mation Resources Management require specific
billing addresses from requisitioning agencies before       $190,000 Civil Settlement
providing ADP service and discontinue services to           On August 19, 1983, the United States entered into an
chronically delinquent customers. We further recom-         agreement with a firm and its president settling their
mended that the Comptroller expedite development of         potential civil fraud liability for $190,000. The settle-
the automated system that is intended to lessen lag         ment was the culmination of a civil fraud prosecution,
time in the billing process, and renew past efforts to      based upon OIG audit/investigative work and a grand
execute an agreement with Department of Defense             jury investigation, which alleged that the firm submit-
agencies to provide for reimbursements via                  ted false claims to GSA. By misrepresenting the work
MILSBILLS, an interfund transfer system.                    experience of its employees, the firm, a subcontractor
                                                            on a major computer contract, had been able to fraudu-
Both the Assistant Administrator and the Comptroller
                                                            lently inflate its billings to OIRM.
concurred in our findings and recommendations. We
have received both action plans for implementation.
                                                            D. Federal Property
$2.95 Million Civil Settlement                              Resources Service
On July 5. 1983, the United States entered into an
                                                            The Federal Property Resources Service (FPRS) is
agreement with a contractor under which the com-
pany agreed to pay $2.95 million as part of a compre-       responsible for the disposal of Government-owned
                                                            real property, management of the Strategic and Critical
hensive settlement of its potential civil and criminal
                                                            Materials Stockpile, and all stockpile transactions
liability to the Government. The settlement ended a
                                                            whether they be acquisitions or sales. In the second
complex case arising from OIG audit and investigative
                                                            half of Fiscal Year 1983, FPRS obligated almost $16.8
reports that prompted a grand jury investigation.
                                                            million in direct operating expense appropriations.
Federal prosecutors alleged that the firm, several of its
                                                            During the same period, the Stockpile rransaction
officials, and two subcontractor employees had
                                                            Fund obligated $30.2 million.
defrauded the Government under a $158 million com-
puter contract with OIRM.                                   Approximately 6,337 audit and investigative staff-
                                                            hours were devoted to the programs and activities of
Specifically, it was alleged that the firm periodically
                                                            the FPRS. This figure represents 3.4 percent of total
increased the Government System Resource Unit
                                                            OIG staffhours this period. We issued seven audit
(SRU) weights, in violation of the fixed price require-
                                                            reports and conducted 36 investigations relative to
ment of the contract, thereby increasing the number of
                                                            FPRS programs.
SRUs consumed by Government users and decreasing
the unit value of the SRU. The invoices submitted to        Stockpile Inventory Discrepancies
the Government were thus inflated and false in that         This audit identified large discrepancies between the
the increases in algorithm weights increased the            official inventory records of the Strategic and Critical
amount billed for SRU consumption.                          Materials Stockpile and the subsidiary inventory rec-
RAMUS-II                                                    ords of storage depots.
A systems review of the Remote Access Multi-User            These differences, which equalled as much as $17.7 to
System-II (RAMUS-II) identified that the interagency        $24.5 million, occurred because the FPRS failed to ver-
agreement between the Office of Personnel Manage-           ify the accuracy of the official inventory records prior
ment (OPM) and GSA for ADP resources to support             to assuming responsibility for their maintenance.
RAMUS-II was excessively costly to GSA. In fact, GSA        On May 10, 1983, we recommended that the Commis-
had reported significant operating losses for the two       sioner, FPRS, take action to reconcile the balances and
fiscal years that the agreement was in effect despite       report any significant differences to the OIG. Further,     5
    we recommended that specific actions be taken to          advance financing" concept used to operate the CSF
    improve automated sytems controls in both the inven-      was improper. recommended a full reconciliation of
    tory and accounts receivable systems.                     CSF projects and a report of any resultant funding vio-
    The Commissioner. FPRS, concurred in our recom-           lations to the Office of Management and Budget
    mendations and sl-!pplied explanations for the dif-       (OMB) and the Congress.
    ferences. The Comptroller submitted a responsive          Our review of the reconciliation process showed that a
    action plan for those recommendations directed to         true reconciliation could not be performed due to the
    him.                                                      absence of accurate accounting data and records. We
                                                              therefore recommended during the course of this audit
    Preaward Audit of Bauxite Purchase                        that any Anti-Deficiency Act violations reported to
    At the request of the Director, Stockpile Acquisition     OMB and Congress be accompanied by a complete
    Division, the OIG audited a $56 million proposal for      explanation of the reconciliation process. GSA officials
    the purchase, shipping, and stockpiling of one million    agreed with this view and the March 3, 1983 report of
    long dry tons of bauxite. The proposal included the       violations included a description of the reconciliation
    proposed costs of two subcontractors.                     process.
    The audit report, issued on June 30, 1983, recom-
    mended total cost avoidances of $3.2 million. The
    questioned costs included proposed overhead and           Revisions to GSA's Payroll Process
    levy costs submitted by the prime contractor, and min-    A regional audit of selected payroll operations identi-
    ing, handling, and shipping costs of the subcontrac-      fied opportunities for greater economy, efficiency, and
    tors.                                                     effectiveness. The most significant of these involved
    Negotiations with the firm began on August 23, 1983.      GSA's payroll distribution process. Specifically, we
    As of September 30, 1983, they were still in progress.    found that the practice of allowing employees to re-
                                                              ceive their payroll checks and U.S. savings bonds at
                                                              their duty station via designated agents was both inef-
    E. Comptroller                                            ficient and uneconomical.
    The Office of Comptroller is responsible for all finan-   In our June 30, 1983 report, we recommended that the
    cial reporting, accounting, and management account-       Comptroller evaluate the impact of eliminating the
    ing support for the GSA. This Office also prepares        designated agent option. We further recommended
    GSA's budget and audits transportation bills paid by      that it be eliminated, if supported by the evaluation
    the Government.                                           results.
    Approximately 19,364 staffhours or 10.3 percent of the    The Comptroller expressed general agreement with
    total audit and investigative resources were devoted to   these and other recommendations contained in our
    programs/operations within the responsibility of the      final report. The study of the designated agent option
    Office of Comptroller. We issued 15 audit reports and     was completed and, on August 27, 1983, a draft order
    conducted 55 investigations.                              was issued for comment. If approved, the order will
    Administrative Fund                                       discontinue this option and allow only direct delivery
                                                              via electronic fund transfers or the mail starting in Jan-
    Control Violation                                         uary 1984. We estimate that this action will save
    A regional review of the Construction Services Fund       $214,917 per year.
    (CSF), initiated in response to allegations of irreg-
    ularities in financial accounting, disclosed an admin-
    istrative fund control violation in budget activity 71    Compliance With the Prompt
    (BA-71) for Fiscal Year 1981. This violation occurred     Payment Act
    due to regional management's failure to implement         A regional review of the Automated Direct Delivery
    specific guidelines issued by the Administrator on        Line Item Billing (ADDLIB) system disclosed the need
    October 24, 1979, which required that costs not exceed    for improved payment procedures to ensure com-
    advances in BA-71 funded project accounts.                pliance with the Prompt Payment Act. We found that
    In our audit report dated June 27, 1983, we recom-        unjustified prompt payment discounts were being
    mended that the Regional Administrator report the         taken by postdating the receipt of some vendor in-
    violation in accordance with prescribed procedures        voices, while other justified discounts were lost
    and implement the October 1979 guidelines. We also        because payment discount terms were not properly
    recommended actions to correct other administrative       entered in the ADDLIB system. We estimated that this
    deficiencies.                                             region either lost or erroneously took prompt payment
    In response to the final audit report, the Regional       discounts totaling almost $97,000 (29 percent of all
    Administrator agreed with four of the five recommen-      discounts offered).
    dations. Exception was taken to our recommendation        In the final audit report. dated August 31, 1983, we
    to report an administrative fund control violation. We    recommended that all invoices be stamped with the
    are awaiting responses from the Comptroller and the       proper date of receipt. We further recommended that
    Commissioner, PBS.                                        procedures be established to ensure the proper entry of
    As part of this audit, we also reviewed the implemen-     discount terms in the ADDUB system.
    tation of a recommendation contained in our March         We are awaiting the Regional Administrator's response
    12, 1982 report entitled "Inadequate and Improper         to the final audit report. His response to the draft report
    Financial Management of the Construction Services         indicated agreement with the recommendations and
6   Fund." This audit, which found that the "fixed price      initiation of corrective action.
SECI'ION m - AUDIT
ACCOl\1PLISHlVIENTS
OIG audit reports frequently contain recommenda-            data and a precise understanding of the full range of
tions for management to avoid the expenditure of            management actions in this area.
funds (cost avoidance) or to recover expenditures (cost
recovery). This section details such recommendations,
highlights our efforts involving the Federal Managers'
                                                            1. Systems of Internal
Financial Integrity Act, and summarizes our audit res-      Accounting Controls
olution and followup activities.                            At the direction of the Inspector General, an audit task
                                                            force was established in May 1983 to study GSA's
                                                            financial management information systems. The pur-
A. Summary of                                               pose of this survey was to develop a permanent file on
Accomplishments                                             these systems and funds, their interrelationships, and
                                                            their potential weaknesses. While the survey wiIll be
During the reporting period. the OIG devoted substan-
                                                            used as an OIG guide for allocating audit resources, it
tial resources to assisting the agency in implementing
                                                            was also intended to assist GSA management in their
the requirements of the Federal Managers' Financial
                                                            FMFIA-mandated review and certification of systems
Integrity Act. Our work in this area resulted in a series
                                                            of internal accounting controls.
of advisory reports on GSA efforts to evaluate and
improve agency systems of internal administrative           The survey report, issued on September 30, 1983,
control. In addition, we conducted a major survey of        addresses 38 financial management information sys-
GSA financial management systems that GSA man-              tems used by GSA components to manage the fiscal
agement should find useful in preparing for their cer-      activities of its appropriated and revolving funds. It
tification of systems of internal accounting controls.      identifies a series of potential problems in this area
In terms of traditional audit activity, the OIG issued      which may impact on GSA's ability to provide relia-
                                                            ble, timely, and meaningful information for fund con-
446 audit reports, including 19 audits performed by
                                                            trol and program management.
other agencies. This figure represents a 17 percent
increase over the results for the last reporting period.    Such problems would, of course, have a major bearing
This increase was achieved in the face of a concurrent      on GSA's certification under the FMFIA. The OIG has
decline of 4.5 percent in our audit staff.                  therefore distributed the survey report to the Admin-
                                                            istrator and all Heads of Services and Staff Offices for
Our recommended savings totaled $85,518,190, in-
                                                            their immediate use and followup.
cluding recommended cost avoidance of $81,302,064
and recommended cost recovery of $4,216,126. Collec-
tively, this represents a 32 percent rise over our recom-   2. Systems of Internal
mended savings last period.                                 Administrative Controls
These cost saving recommendations translate to rec-         The Office of Audits has also been closely monitoring
ommended savings of over $25 for every dollar spent         GSA's efforts to assess and improve its systems of inter-
in direct time on these audits. Considering that this       nal administrative control in preparation for the
figure does not capture those unquantifiable savings        December 31, 1983 FMFIA certification. Our approach
resulting from greater program effectiveness and oper-      has been to work with the responsible management
ational efficiency, we believe that our impact this pe-     officials on an ongoing basis, and to provide them with
riod has been substantial.                                  a series of advisory reports. The reports suggest
Based on recommendations in these reports and in            courses of action to better assure the reliability and effi-
reports from prior periods, management has com-             ciency of GSA's process for evaluating and reporting
mitted itself to avoid costs of $39,580,273 and to          on systems of internal administrative controls.
recover payments of $4,004,705. These commitments
translate into annualized savings of almost $7 for
every dollar budgeted to Audits.
                                                            c. contract and Internal
B. Federal Managers' Financial                              Audit Activity
Integrity Act                                               1. Contract Audit Accomplishments
As GSA management officials work toward imple-              We issued 289 contract audit reports resulting in rec-
menting the requirements of the Federal Managers'           ommended cost avoidance and recommended cost
Financial Integrity Act (FMFIA) and OMB Circular            recovery of over $55.2 million. Nineteen of these
A-123, "Internal Control Systems," the Office of Audits     audits, involving recommended cost avoidance of $4.5
is assisting and independently monitoring their             million, were performed for us by other agencies.
implementation actions. Moreover, we are coordinat-         Another four audits, which recommended the recov-
ing our efforts with those of OMB and the General           ery of $579,127, were performed by our staff but
Accounting Office (GAO) to ensure a commonality of          involved non-GSA contracts.                                    7
    Table 1 presents a breakdown of these costs by type of   in the largest payback in terms of dollars reviewed; we
    audit. Audits of contractor claims continued to result   questioned almost 90 percent of the dollars reviewed.


                                   Table 1. Summary of Contract Audits
                                                       Total          Recommended             Recommended
      AUDITS BY                    Reports            Dollars             Cost                    Cost
      GSA-OIG
            "~-----
                                   Issued            Reviewed           Avoidance               Recovery
      Architect-Engineer               31          $ 13,694,788         $ 1,089,820             $
      Claims                            9             5,659,234           5,087,913
      Initial Pricings                 83           146,979,240          14,516,909
      Change Orders                     7             2,385,585             545,349
      Lease Escalations                33            35,174,986          10,027,927                  20,372
      Multiple Award-
      Preaward                         57           603,896,984          13,494,099
      Multiple Award-
      Postaward                        21            39,004,817                                   2,908,570
      Others                           29            35,457,674           2,432,526                 564,384
      Subtotal-GSA-OIG                270          $882,253,308         $47,194,543             $3,493,326

      AUDITS BY OTHERS
      Initial Pricings                 19          $ 59,086,393         $ 4,531,198             $
      Subtotal-Others                  19          $ 59,086,393         $ 4,531,198             $

      TOTAL AUDITS                    289          $941,339,701         $51,725,741             $3,493,326

      TOTAL
      COSTS
      RECOMMENDED                  $55,219,067




8
In terms of contract audit settlements, the most strik-          originally recommended.
ing achievement is the correspondence between                    Settlements of Fiscal Year 1983 audits were partic-
amounts recommended and management commit-                       ularly impressive: 96 percent of the total amount rec-
ments, As the data in Table 2 demonstrate, over 81 per-          ommended for avoidance and recovery in these
cent of our recommendations for cost avoidance were              reports was agreed to by management. We believe that
agreed to by management, while almost 68 percent of              this result fully supports the premise of GSA's new
our cost recovery recommendations were accepted.                 audit followup system, i.e., that prompt resolution of
Overall, during this period management committed                 audit recommendations leads to a higher rate of sus-
itself to recover or avoid 80 percent of the amounts             tained savings.


                        Table 2. Summary of Contract Audit Settlements
                                    AVOIDANCE                                     RECOVERY
  Report                  Recommended      Management                      Recommended    Management
  Issue Date                  Costs        Commitment                         Costs       Commitment

  FY 78 GSA                  $                        $                         $ 293,451          $       7,572
  FY 80 GSA                         335,716                  289,415             1,288,383               100,000
  FY 81 GSA                      11,888,936                8,741,849               380,296                24,260
  FY82 GSA                        4,201,897                1,189,444             1,840,540             2,403,692
  Other                             363,519                  348,613
  FY83 GSA                       17,622,534               16,467,337                247,165             210,181
  Other                           2,835,819                3,265,660
  Total-GSA                  $34,049,083              $26,688,045              $4,049,835          $2,745,705

  Total-Other
                             $ 3,199,338              $ 3,614,273              $                   $

  TOTAL                      $37,248,421              $30,302,318              $4,049,835          $2,745,705

  TOTAL
  MANAGEMENT
  COMMITMENT                 $33,048,023




2. Internal Audit Accomplishments                                involved the programs or operations of the Public
We issued 107 internal audit reports involving recom-            Buildings Service.
mended cost avoidance of over $21.7 million. Table 3,            Internal audits resolved during the reporting period
which summarizes these audits by GSA Service,                    resulted in management commitments to avoid
shows that over 94 percent of our .recommendations               $1,663,955.


                                   Table 3. Summary of Internal Audits
                                              Number                   Percentage               Recommended
                                                of                          of                      Cost
  GSA Service                                 Reports                  Total Audits               Avoidance

  Public Buildings Service                       63                            58                $20,527,606
  Federal Supply
  and Services                                   15                            14
  Office of Comptroller                          15                            14                      256,517
  Federal Property
  Resources Service                               7                             7
  Other                                           7                             7                       980,000
  TOTAL                                         107                        100                   $21,764,123
  TOTAL
  COSTS
  RECOMMENDED                             $21,764,123
                                                                                                                          9
     3. Inspections Audit
        Accomplishments
     Table 4 summarize~ the results of our Inspections and        avoidance was over $7.8 million; recommended cost
     Technical Services Division, a group of technical spe-       recovery amounted to $722,800.
     cialists who are skilled in the areas of engineering,
     architecture, energy conservation, buildings manage-          Inspections reports resolved during the period result-
     ment, leasing, quality assurance, and procurement.            ed in a management commitment to avoid the expend-
     During the reporting period, the division issued 50           iture of $7,614,000 and to seek the recovery of
     inspections reports covering 111 GSA contracts with a         $1,259,000.
     value of over $67,6 million, Total recommended cost


                                  Table 4. Summary of Inspections Results
                                          No. of         Total Dollar        Recommended            Recommended
                                         Reports          Value of               Cost                   Cost
       Program Area                      Issued          Contracts             Avoidance              Recovery
       Public Buildings Service
         Leasing                             5          $19,360,000            $7,315,600               $ 23,700
         Lease
         Alterations                         5            1,205,000                 16,300                38,000
         New Construction                    5           31,449,400                                      576,700
         Repairs and
         Alterations                        19                6,244,000            315,400
         Buildings
         Operations                                            218,300
         Energy                               1                                     18,000
       Federal Supply
       and Services                         13                9,189,600            146,900                84,400
       Other
       TOTAL                                50          $67,666,300            $7,812,200               $722,800
       TOTAL
       COSTS
       RECOMMENDED                      $8,535,000




     D. Audit Resolution
           and Followup
     1. Audit Resolution
     During the period, GSA's management has generally             audit results reflect the inclusion of all reports issued
     been responsive to the recommendations contained in           in the last six months, not just those with recovery rec-
     our audit reports. In most cases, resolution decisions        ommendations (as in previous reports). Our internal
     have been made in accordance with the six-month               results include inspections reports for the first time.
     time schedule specified in GSA Order ADM 2030.2A,             Because the universe being reported on is much larger,
     "Audit Resolution and Followup System."                       the number of reports unresolved at the close of the
     Tables 5 and 6 summarize the resolution of contract           period appears to be greater than in prior reports.
     and internal audits during the period. Our contract




10
                                Table 5. Resolution of Contract Audits
                                                                 Reports
                                            No. of             Questioning                 Costs
                                           Reports                Costs                  Questioned

  Reports to be Resolved
  as of 4/1/83*
  - Less than 6 months old                    20                     20                  $ 3,127,277
  - More than 6 months old
  Reports Issued this Period**               282                    216                   52,990,633
    TOTAL TO BE RESOLVED                     302                    236                  $56,117,910
  Reports Resolved
  -Issued Prior Periods                       20                     20                  $ 3,127,277
  -Issued Current Period                     145                     79                   12,228,849
    TOTAL RESOLVED                           165                     99                  $15,356,126
  Unresolved as of 9/30/83
  -Less than 6 months old                    137                    137                  $40,761,784
  -More than 6 months old
    TOTAL UNRESOLVED                         137                    137                  $40,761,784
                                                                 Costs                  Management
  Management Commitments                                       Questioned               Commitments
  Final Settlements                           72               $11,038,187               $11,025,585
 *Includes reports with recovery recommendations only.
**The remaining 7 reports issued this period are not subject to GSA ADM 2030.2A. Three reports are under
  investigation, while the remaining four involved non-GSA contracts.


                   Table 6. Resolution of Internal and Inspections Audits
                                                                Reports
                                            No. of             Questioning                 Costs
                                           Reports               Costs                   Questioned
   Reports to be Resolved
   as of 4/1/83*
   - Less than 6 months old                   43                    11                  $ 1,319,220
   -More than 6 months old                     4                                            343,931
   Reports Issued this Period                157                    18                   21,299,037
     TOTAL TO BE RESOLVED                    204                    30                  $22,962,188
  Reports Resolved
  -Issued Prior Periods                       42                    12                  $ 5,163,151**
  -Issued Current Period                      98                     5                    7,737,725
     TOTAL RESOLVED                          140                     17                 $12,900,876
   Unresolved as of 9/30/83
   - Less than 6 months old                    59                   13                  $10,061,312
   -More than 6 months old                      5
     TOTAL UNRESOLVED                         64                    13                  $10,061,312
                                                                                        Management
   Management Commitments                                                               Commitments
   -Issued Prior Periods*'                    41                    12                  $ 5,163,151**
   -Issued Current Period                     98                     5                    7,704,595
                                               139                      17                $12,867,746
 *Does not include inspections reports which became subject to resolution procedures this period.
**Includes costs from an inspections report issued in the prior period.                                    11
     2. Implementation Reviews                                  claim actions are sent by registered mail with a request
     GSA Order ADM 2030.2A places primary respon-               for a return receipt, and that timely followup com-
     sibility for followup on the implementation of resolved    munication is initiated on such actions. We further rec-
     audit recommendations with the Audit Followup Of-          ommended that the Assistant Regional Administrator
     ficial. The Office of Audit Resolution. Office of Policy   for Public Buildings and Real Property maintain close
     and Management Systems. acts as staff to this official     contact with GAO until the subject claim action is
     in carrying out this responsibility.                       completed.
     The OIG performs its own independent reviews of            The Regional Administrator concurred in our recom-
     implementation actions on a test basis. This period,       mendations. We are awaiting a response from the Com-
     seven OIG implementation reviews were conducted.           missioner. PBS.
     In four reviews. management had successfully imple-        Because this audit was highlighted in a prior Report to
     mented our recommendations. The three instances            the Congress, it is also discussed in Section IX of this
     where our recommendations were not implemented             report.
     are described in the following paragraphs.
                                                                Procedures for Construction Contract
     Contract for New Federal Office Building                   Change Orders
     Improperly Administered                                    Our review of the management actions taken in
     In our Report to the Congress for the period Odober 1,     response to the seven recommendations contained in
     1981 to March 31, 1982, we reported that our review of     our April 7, 1982 report disclosed that five of the seven
     the construction of the new Federal office building in     recommendations had not been fully implemented.
     Hato Rey. Puerto Rico, had found that over $580,000 in     Accordingly, on May 27, 1983 we reaffirmed the five
     unnecessary costs were incurred and additional funds       recommendations addressing the need for improve-
     were wasted due to improper administration of the          ments in procedures for issuing and administering
     construction contract. In updates on the status of         construction contract change orders in one GSA
     implementation of these significant recommenda-            region.
     tions, we have reported (based on information from         The Regional Administrator concurred in our findings
     the Office of Audit Resolution) that the recommenda-       and recommendations. The Commissioner, PBS, has
     tions had been implemented, but that this report was       not yet responded to the report.
     being tracked until overpayments to the contractor
     were recovered.                                            Denver Federal Center Buildings
     This period, we performed an implementation review         Management Field Office
     of management's corrective action. Our review dis-         An implementation review of the 11 recommendations
     closed that the region did not take proper steps to        contained in our September 24, 1981 report found that
     recover these overpayments. A demand letter was sent,      inadequate corrective action had been taken on one of
     but the contractor never responded to the letter. Be-      the recommendations. Therefore, in our implementa-
     cause the first letter was not sent by registered mail     tion review dated May 17,1983, we recommended spe-
     with a return receipt requested, there was no proof of     cific corrective action that would be responsive to the
     receipt by the contractor. Furthermore, no followup        intent of our original recommendation.
     action was initiated by the region until five months       The Regional Administrator and the Commissioner,
     had passed.                                                PBS, concurred in our findings and recommenda-
     In our report dated June 22, 1983, we recommended          tions. On July 1, 1983, we received a responsive action
     that the Regional Administrator ensure that future         plan and resolution was achieved.




12
SECTION IV - INVESTIGATIVE
ACCOMPLISHMENTS
OIG investigative activity fs designed to detect and         activities on matters with the greatest prosecution
investigate illegal and/or improper activity involving       potential and develop solid cases that 'will hold up in
GSA programs. personnel and operations. From these           court. It also reflects a more aggressive referral pro-
investigations. referrals are made for criminal, civil       gram at the State and local level. Cases declined by the
and administrative action. This section summarizes           Department of Justice are being referred to local
our investigative workload. referrals. and the actions       authorities on a regular basis.
which have resulted from these referrals.                    The amount of money/property recovered through our
                                                             investigations rose by over 319 percent this period.
A. Summary of                                                Approximately $645,624 was recovered over the past
                                                             six months. Last period, we reported $154,036.
Accomplishments                                              Finally, as a prefatory note, the data in this section
This reporting period was marked by significant
accomplishments relative to criminal, civil, and inves-      have, for the first time, been prepared using the auto-
tigative actions. We were able to initiate many new          mated Inspector General Information System (IGIS).
actions and successfully manage the workload of the          The conversion from manual to computer systems
previous period in a timely manner.                          required numerous edits during the March and April
                                                             1983 time frame. While the overall caseload reflected
At the beginning of the period, 637 investigative cases      in IGIS is complete and correct, the edits resulted in
were pending. Over 46 percent (295 cases) involved           certain changes in the reported timing of caseload
white collar crimes such as fraud, bribery, embezzle-        processing. As a result, the "caseload pending as of
ment, and false claims. During the period, we ag-            April 1, 1983" statistics presented herein have been
gressively pursued these white collar crimes and were        adjusted from those presented in the last report.
able to close 120 cases. Overall, we were able to close
313 or almost half of the cases pending at the begin-
ning of the period.
                                                             B. Investigative Activity
We opened 370 new cases this period. including 137           1. Investigative Workload
cases (37 percent) involving white collar crimes. A          The investigative workload remained relatively con-
total of 95 cases opened this period were also closed        stant as compared to the last reporting period. We
this period.                                                 opened 370 cases and closed a total of 408 cases.
                                                             Detailed information on investigative activity by case
The number of convictions resulting from our crimi-          category is presented in Table 1.
nal case referrals rose dramatically over the last six
months. Last period we reported 14 convictions; this         In addition to these cases, we received and evaluated
period 48 convictions were obtained, an increase of          170 complaints/allegations from sources other than
242 percent. We believe the number of successful pros-       the Hotline which involved GSA employees and pro-
ecutions is the result of early consultation with the        grams. Based upon an analysis of these allegations, for-
U.S. Attorneys Office regarding the criminal potential       mal investigations were not warranted.
in the investigations we are working. These con-             A total of 56 cases were administratively closed with-
sultations are enabling our investigators to focus their     out referral.

                               Table 1. Investigative Workload Activity
                                                Cases Open          Cases          Cases         Cases Open
   Case Category                                  4/1/83           Opened          Closed          9/30/83

   White Collar Crimes (Fraud, Bribery,              295             137             146              286
   Embezzlement, and False Claims)
   Other Crimes in                                   159               95            117              137
   GSA-Controlled Space
   Contractor Suspension/                             44                9             25               28
   Debarment
   Employee Misconduct                                73               79             58               94
   Other                                              66               50             62               54
   TOTAL                                             637             370            408               599



                                                                                                                        13
     2. Investigative Recoveries                                           The status of our administrative referrals is as follows:
     Investigations conducted by the OIG may result in the                                                            Cases Subjects
     recovery of money or property belonging to the Gov-                     Pending as of 4/1/83 .........             66     76
     ernment. This peripd, approximately $645,624 was                        Referrals ...... . . . . . . . . . . . .. 137    179
     recovered through investigative activity.                               Action Completed ........... 111                 129
                                                                             Pending as of 9/30/83 . . . . . . . .      92    126
                                                                           Of the cases referred for administrative action this
     3. Referrals                                                          period, 109 cases (129 subjects) involved GSA em-
     The OIG makes three types of referrals to officials out-              ployees. As a result of these and prior referrals, man-
     side of GSA: criminal. civil. and investigative. During               agement took the following actions against GSA
     the period, we referred 93 criminal cases involving                   employees:
     135 subjects to the Department of Justice or other                       Reprimands ............................. 29
     authorities for prosecutive consideration. The status of                 Suspensions ................. , ........... 14
     our criminal referrals is as follows:                                   Demotions .............................. 1
                                                                             Terminations .................... .. .... 16
                                                          Cases Subjects
        Pending Prosecutive Decision                                       5. Contractor Suspensions
        as of 4/1/83 .. .. .. . .. .. . .. . . .           48      94          and Debarments
        Referrals .. . . . . . . . . . . . . . . . ..      93     135      The OIG has continued its efforts to make the suspen-
        Declinations ................                      73     109      sion and debarment process a more effective and more
        Accepted for Prosecution .....                     32      56      readily used administrative procedure. By prohibiting
        Pending Prosecutive Decision                                       firms or individuals from doing business with the
        as of 9/30/83 . . . . . . . . . . . . . . ..       43      64      GSA, it protects the Government from contractors who
     We also referred 12 cases involVing 16 subjects to either             engage in improper or illegal activities and acts as a
     the Civil Division of the Department of Justice or the                deterrent against future recurrences.
     appropriate U. S. Attorney for civil action. These refer-             This period. we referred three cases (eight subjects) to
     rals could result in potential civil recoveries of $2.3               GSA officials for suspension. We also referred 11 cases
     million. The status of our civil referrals is as follows:             (36 subjects) for debarment. Six subject referrals for
                                                          Cases Subjects   suspension were cancelled because these individuals
        Pending Litigation Decision                                        were suspended by another agency. Four subject refer-
        as of 4/1/83 ............... "                     28      43      rals for suspension were converted to debarments
        Referrals . . . . . . . . . . . . . . . . . . .    12      16      instead of suspensions. As a result of these and prior
        Declinations ................                       4      14      referrals. one suspension was imposed and 54 debar-
        Accepted for Litigation . . . . . . . .            13      17      ments effected. Recommendations on 19 debarments
        Pending Litigation Decision                                        were disapproved.
        as of 9/30/83 . . . . . . . . . . . . . . ..       23      28      The status of our referrals for suspension and debar-
     For the 23 cases representing 28 subjects pending at                  ment is as follows:
     the close of the period, total potential recoveries ex-                  Suspensions                        Cases Subjects
     ceed $8.2 million.                                                       Pending as of 4/1/83 ....... .        4          13
     We made 14 case referrals to other Federal or State agen-                Referrals ................. .         3           8
     cies for further investigation or other appropriate                     Action Completed ......... .            4          11
     action.                                                                 Pending as of 9/30/83 ...... .          3          10
                                                                             Debarments
                                                                             Pending as of 4/1/83 ...... .         20           53
     4. Administrative Referrals and                                         Referrals ................. .         11           36
          Actions Involving GSA                                              Action Completed ......... .          25           73
                                                                             Pending as of 9/30/83 ...... .         6           16
          Employees and Programs
     Frequently, OIG investigations disclose nonprosecuta-
     ble wrongdoing on the part of GSA employees. con-
                                                                           C. Criminal and Civil Actions
     tractors. or private individuals doing business with                  1. Criminal and Civil Case Activity
     the GSA. Such cases are referred to GSA officials for                 Cases accepted for criminal prosecution during this
     administrative action.                                                and prior periods resulted in 32 indictments/informa-
     During the period, 137 cases involving 179 subjects                   tions and 48 convictions. The case against one indi-
     were referred for administrative action. In addition,                 vidual was dismissed. Detailed information on sub-
     165 cases involving 194 subjects were referred to GSA                 jects in the criminal justice system is presented in
     officials for informational purposes only.                            Table 2.




14
C~ses accepted for civil litigation in this and prior         volving 14 subjects, while judgments were entered in
periods resulted in six civil case filings involving 12       three cases involving three subjects. We had no unsuc-
subjects. Settlements were reached in eight cases in-         cessful civil actions this period.


                         Table 2. Subjects in the Criminal Justice System
                                               Indictments/              Convictions              Sentences
                                               Informations              Pleas/Trials              Imposed

  GSA Employees                                        9                       13                       10
  Firms                                                3                        7                        3
  Officers. Employees, Principals                      9                       17                        5
  and Agents of Firms
  Other Individuals                                    9                           9                     8
  Other Government Employees                           2                           2                     3
  TOTAL                                              32                       48                        29



2. Monetary Results
Table 3 presents the amounts determined to be owed          actions. The totals do not necessarily reflect actual
the Government as a result of both criminal and civil       monetary recoveries.


                               Table 3. Criminal and Civil Recoveries
                                                Criminal                   Civil                       Total
   Fines and Penalties                         $    5,826               $                         $       5,826
   Settlements and Judgments                       60,576                3,895,820                    3,956,396
   Restitutions                                    34,324                    6,212                       40,536
   TOTAL                                       $100,726                 $3,902,032                $4,002,758




D. IG Subpoenas                                               tions when other reasonable measures fail. During the
The OIG views the use of subpoenas to be an effective         period, four instances met this criterion and sub-
tool for obtaining information for audits and investiga-      poenas were issued.




                                                                                                                       15
     SECTION V -- REVIEW OF LEGISLATION
     AND REGULATIONS
     The OIG is mindful of the importance of its legislated     - Generally supported S. 1034. Freedom of Informa-
     responsibility to review existing and proposed legisla-    tion Improvement Act of 1983, but articulated reserva-
     tion and regulations. Such reviews constitute an           tions on certain provisions of the bill.
     important vehicle for making recommendations that          - Commented on draft Federal Protective Service Act
     will increase economy and efficiency in GSA opera-         of 1983. Recommended certain changes that would
     tions as well as prevent fraud and abuse.                  clarify a Federal Protective Officer's authority with
                                                                respect to search and seizure. and remove burdensome
                                                                restrictions concerning an officer's authority to carry
     A. Legislation/Regulations                                 firearms.
                                                                 direct
          Reviewed                                               - Objected to Section 6 of S. 461, a bill to extend the
     During the period, our legal staff reviewed 228 legis-      appropriations of the Office of Government Ethics for
     lative matters and 66 regulatory initiatives relating to    five years. This provision could be interpreted as
     the economy and efficiency of Government operations         authorizing the Director of Government Ethics to
     and the prevention of fraud and abuse. In addition,         direct Inspector General investigations and audits,
     numerous GSA issuances were reviewed and com-               and as such would represent a clear diminution to the
     mented on by this and other elements of the OIG.            statutorily mandated independence ofInspectors Gen-
                                                                 eral.
                                                                 -Recommended that S. 905, National Archives and
     B. Significant Comments                                     Records Administration Act of 1983, recognize the
     The paragraphs below summarize the OIG's position           need for a separate Office of Inspector General within
     on some of the more significant legislative and reg-        an independent organization.
     ulatory matters reviewed.
                                                                 - Generally supported H.R. 769, a bill to provide uni-
     - Supported H.R. 3625, a bill to amend the Inspector        form financial management and audit standards for
     General Act of 1978 to create Offices ofInspector Gen-      Federal assistance programs. Recommended revisions
     eral at the Departments of Energy, Health and Human         to certain provisions of the proposed legislation.
     Services, Treasury, and Justice, and to authorize Office
     of Inspector General personnel to administer oaths,         -Generally opposed H.R. 224, a bill to limit the Gov-
     affirmations, and affidavits.                               ernment's acquisition and use of motor vehicles. The
                                                                 proposed statute would eliminate the flexibility
     - Supported S. 1566, the Program Fraud Civil Penal-         needed to effectively meet the Government's needs.
     ties Act of 1983, a bill to provide executive agencies
     with the authority to prosecute to recover civil penal-     - Opposed S. 1510, a bill requiring only a single, lim-
     ties for false claims made against the United States.       ited audit of State and local government grantees by
                                                                 independent auditors. Under the proposed legislation,
     - Opposed S. 1794, a bill which under certain cir-          Federal agencies would be responsible for performing
     cumstances would require executive agencies to pro-         supplemental audits necessary to guarantee that grant
     cure supplies or services from local commercial             funds were applied to authorized projects and that
     sources instead of from a multiple award schedule of        program results were consistent with overall objec-
     the Federal Supply Schedule.                                tives of the Federal grant program. We expressed sup-
     - Recommended that a provision of H.R. 1882, Con-           port for a more comprehensive audit requirement,
     sulting Reform and Disclosure Act of 1983, which            such as that provided under OMB Circular A-I02-P.
     could be construed as eliminating the authority of          - Strongly opposed S. 1746 because certain provi-
     Inspectors General to employ experts and consultants,       sions could be interpreted as limiting the Inspector
     be revised to ensure the perpetuation of this authority.    General's current discretionary utilization of private
     - Opposed S. 1181, a bill to revise the Government's        sector audit and investigative services. We consider it
     progress payment practice with respect to construc-         essential that the Inspectors General retain the broad-
     tion contracts. This bill would require 100 percent pay-    est discretion with respect to the conduct of audits and
     ment absent an affirmative Government finding of            investigations, including the use of private sector
     unsatisfactory progress.                                    resources.




16
SECTION VI - PREVENTION ACTIVITIES
In addition to the responsibility to detect wrongdoing      an important facet of our vulnerability definition and
in GSA operations, the OIG is required to take a lead-      assessment efforts. is separately discussed in Section
ership role in initiatives designed to prevent fraud and    VII of this report.
abuse. We have developed a four-pronged prevention
program that is responsive to the elements we view as
fundamental to minimizing opportunities for fraud           C. Anticipation
and abuse.                                                  Two areas which have demonstrated vulnerabilities to
                                                            fraud and waste are the leasing program and ADP sys-
                                                            tems development efforts. Therefore. we have con-
A. Background                                               tinued our front-end reviews in these areas.
As discussed in our last Report to the Congress. we         Relative to space acquisition, the OIG continued its
believe that four factors are essential to preventing the   preaward advisory reviews of leases. Such reviews
occurrence of fraud and waste. They are:                    ensure that contractual actions relative to all leases
  • Definition, which involves the identification of        involving annual rentals in excess of $200,000 con-
     areas vulnerable to fraud and waste and. to the        form to regulatory requirements. In addition. they are
     extent possible. the assessment of the degree of       designed to identify deficiencies in the leasing pro-
     vulnerability.                                         cess. surface irregularities affecting lease award, and
  • Anticipation. which entails activities designed to      ensure that lease files contain all required documenta-
     provide front-end assurances that, at least at the     tion. While these reviews are advisory in nature and
     outset, programs or activities are operating           do not constitute a concurrence in or approval to make
     within applicable laws. regulations, policies. or      an award. they are a valuable prevention measure.
     procedures.                                            The following schedule shows the program results for
  • Education. which involves activities to heighten        this period:
     agency awareness to the manifestations of fraud,       Lease proposals submitted for review ............ 67
     the mechanisms for reporting wrongdoing, and           Lease proposals reviewed ...................... 39
     the ~IG's role in this regard.                         Reviews "'lith no or minor deficiencies ........... 35
  • Communication, which refers to outreach activi-         Reviews with major deficiencies ................ 4
     ties that reinforce our educational program and        Some of the major deficiencies included: failure to
     maintain a dialogue with GSA employees. Such           identify the partners involved in a leasing action; dis-
     activities operate on the premise that for the OIG     agreement between PBS elements on the amount of
     to be effective, employee input is essential. Also,    space to be leased; discrepancies in the request for
     to maintain this dialogue, feedback on tangible        space. market survey, solicitation for offer, and evalua-
     results must be provided to employees.                 tion of offers; and potential overpricing of operating
The following paragraphs update the status of the           costs.
activities addressed in our last Report to the Congress     This period, we also completed another major review
and present new initiatives undertaken this period.         of an ADP systems development project. This review
                                                            ensured that adequate controls were built into the
B. Definition                                               FSS-28 system, a system to automate GSA's self-serv-
This period, we worked to more fully define the             ice store operations. In the overall audit report issued
auditable entities within the GSA for our Inventory of      on July 21, 1983, we identified numerous problems, in-
Auditable Entities. This process has involved better        cluding internal control weaknesses. that precluded
identification of resources budgeted to these entities,     the system from providing line item accountability, a
their geographic locations, and the need for recurring      primary objective of this system. By disclosing these
and one-time reviews. The inventory was utilized as         problems at this stage of the development effort, the
the basis for our Fiscal Year 1984 audit plan.              Office of Federal Supply and Services was able to initi-
We also surveyed our contract audit universe and            ate corrective action and avoid potential costs of ap-
developed an Inventory of Auditable Contracts. It con-      proximately $500,000. Presently, we are reviewing
tains 9,788 contracts valued in excess of $7.5 billion.     several other projects where there are similar oppor-
The inventory is comprised of contracts that must be        tunities for significant cost savings.
audited under the provisions of the Federal Procure-
ment Regulations and those that can be performed at         D. Education
our option. This effort, due to the number of contracts     Since 1981, the OIG has conducted an Integrity Aware-
involved. represents a major accomplishment for the         ness Briefing program for GSA employees. Individual
period. Its completion places us closer to our goal of      briefings explain the statutory mission of the OIG and
having fully automated inventories of both our inter-       the functions of component offices. In addition,
nal and external audit responsibilities.                    through case studies and slides, the employees are
As discussed in Section III, we also undertook a spe-       exposed to actual instances of white collar crime that
cial survey of GSA's financial management informa-          have occurred in GSA and other Federal agencies. The
tion systems to identify potential weaknesses and           briefing concludes with a presentation on how to rec-
vulnerabilities. Likewise. our first operational survey.    ognize the manifestations of wrongdoing, how to             17
     respond to them, and the employee's potential role in        tion in our Report to the Congress. More importantly.
     an ensuing investigation. These briefings thereby edu-       this brochure serves to emphasize to each employee
     cate GSA employees along three lines: the role of the        that the OIG gets positive results in its undertakings.
     OIG, the need to recognize and respond to wrongdoing         We intend that these brochures become regular issu-
     in a responsible maFlller, and the need for cooperation      ances. Further, a Hotline poster is currently being
     between employees and the OIG.                               designed that will be placed in all buildings where
     This period, another 815 managers, supervisors, and          GSA employees are housed. In addition to serving as a
     employees in nine GSA regions and Central Office             highly visible reminder to employees, this poster will
     attended these briefings. Since 1981, a total of over        reach non-Government personnel doing business
     2,800 employees have received this training.                 with the agency. Finally, we are increasing communi-
     The Inspector General has also adopted a policy of per-      cation through already established channels. For
     sonally briefing newly appointed top-level manage-           example, we regularly contribute newsworthy items
     ment officials in Central Office on our missions,            to "GSA Update," a weekly newsletter issued by GSA.
     functions, and responsibilities. This policy has been in     Judging from our Hotline activity during the period,
     effect for approximately one year. This period, we           our communications initiatives are having the desired
     totally revised this slide-narrative presentation to         effect. Between April 1 and September 30, 1983, we
     more effectivel y communicate the IG story. Pending the      received 608 Hotline calls and letters. While the total
     completion of an internal evaluation process, the            number of allegations received decreased this period,
     revised presentation will be implemented in the near         the complaints were more substantive. Last period,
     future.                                                      814 calls or letters were received, but only some 135
     We are now working closely with our field offices to         cases or 17 percent warranted investigation. This
     institute the same type of briefing at the regional level.   period, some 34 percent of the allegations warranted
                                                                  investigation. We also received 17 referrals from the
     E. Communication                                             General Accounting Office and 18 referrals from other
     A free flow of information between agency employees          agencies.
     and the OIG is critical to both the prevention and           These complaints were evaluated and, where war-
     detection of fraud and abuse in the GSA. This period,        ranted, appropriately referred to GSA program offi-
     the OIG issued two new publications as part of its out-      cials, other Federal agencies, or audit or investigative
     reach program - a Hotline brochure and a brochure            units of this Office. Complaints were referred as fol-
     summarizing the last Report to the Congress. The for-        lows:
     mer was designed to heighten GSA employee aware-
     ness to the Hotline and increase use of this vehicle. The    AuditslInvestigations ......................... 112
     latter was developed to educate employees in the             GSA Program Officials ............. . . . . . . . . .. 84
     organization and functions of the OIG, while also out-       Other Agencies ............................... 11
     lining our significant findings and accomplishments
     over the last reporting period. Most GSA employees           The remaining 436 complaints required no further
     would not otherwise have had access to the informa-          action and were closed.




18
SECTION VII - COORDINATION
The OIG concept - consolidated audit and investiga-           strengthen the ties between headquarters and the field.
tion capabilities under the leadership of an Inspector        Interdisciplinary Meetings
General- is intended to increase the effectiveness of
                                                              The workload of the OIG is principally performed by
efforts to prevent and detect fraud and abuse. A key
                                                              field audit and investigation offices in each of GSA's 11
feature leading to greater effectiveness is the coordina-
                                                              regions. At the regional level, these offices operate
tion of audit and investigative activity.
                                                              independently of each o.ther. To ensure that the direc-
                                                              tors of these offices build upon the foundations laid in
A. Introduction                                               the semiannual conferences and are actively attempt-
Prior to the enactment of the Inspector General Act,          ing to coordinate work projects. OIG policy calls for
audit and investigative activities within the GSA were        monthly interdisciplinary meetings between field
separate and distinct functions. Establishment of the         audit directors and special agents-in-charge (SACs).
GSA OIG consolidated these functions within one               Each meeting is conducted in accordance with an
office, thereby forming a single focal point for all mat-     agenda which is alternately developed by the audit
ters relative to fraud, waste, abuse, and mismanage-          director and the SAC; agenda items normally address
ment in GSA programs or operations.                           the workload being performed by that office. On a
While coordination is facilitated by consolidation, it is     quarterly basis, interdisciplinary meetings are also
not an inevitable outgrowth of consolidation. It is a         scheduled for the employees in our field offices.
feature that can be developed, but this development           Interdisciplinary meetings are likewise held at head-
must be purposeful, directed, and carefully struc-            quarters, but on a quarterly basis.
tured. This office, in keeping with its legislated man-
date, has undertaken such a development process over          IG Telephone Conferences
the last two years.                                           More than one year ago, monthly IG telephone con-
                                                              ferences were inaugurated. These conferences are
B. Coordination Initiatives                                   intended to provide a regular forum for the discussion
Our development process has focused on three factors          of issues and events of interest to all OIG components.
deemed essential to effective coordination of audit and       All management officials from our audit and inves-
investigative activity: an organizational structure that      tigation functions participate in these conferences.
supports coordination; mechanisms that foster con-            The teleconferences. in addition to emphasizing the
tinual dialogue between offices; and the identification       element of unity, give the Inspector General the oppor-
of selected activities to be performed on a collaborative     tunity to provide the personal direction necessary to
basis by auditors and investigators operating outside         keep components working cohesively toward OlG
the strictures of their respective disciplines. Our           management goals. Conversely, each conference·
efforts in each of these areas are detailed below.            provides an opportunity for our managers to solicit
                                                              direction. advice, or input on matters of concern to
1. Organizational Structures                                  them. The results of this dialogue are subsequently
Past Reports to the Congress have focused on the major        documented in minutes and distributed to all partici-
OIG reorganization that occurred in February 1982.            pants.
Part of that reorganization involved the establishment
of two new offices, Counsel to the Inspector General          Interoffice Referrals
and Policy, Plans, and Management Systems, to re-             Coordination of audit and investigative work in pro-
spond to perceived coordination needs. The former             cess is a prerequisite to the effective functioning of an
assists auditors and investigators in dealing with the        Office of Inspector General. Within the GSA OIG, this
legal issues that can surface as a result of OIG review; it   vital link has been formalized in policy statements,
also plays a lead role in pursuing civil remedies. The        and mechanisms have been established to ensure that
latter is specifically charged with overseeing all OIG        referrals flow from Audits to Investigations and vice
components to ensure that their activities are coordi-        versa.
nated and that overall OIG resources are focused              Our audit staff has been trained to be alert to any infor-
appropriately.                                                mation disclosed through audit that may indicate
                                                              potential wrongdoing, whether of a criminal or
2. Mechanisms Fostering Dialogue                              administrative nature. They have been further
Semiannual Conferences                                        instructed to promptly refer this information to the
In March and September of each year, the OIG holds a          Office of Investigations via a formal document known
joint conference for its headquarters and field manage-       as a suspicion of irregularity.
ment officials. The purposes of these conferences are to      Conversely, our investigators have been instructed to
discuss issues affecting OIG policies, refine proce-          be alert to possible systemic problems or deficiencies
dures, and develop goals for new initiatives. Approxi-        in programs or operations administered or financed by
mately half of each conference consists of joint audit        the GSA. This information is to be referred to the Office
and investigative sessions which focus specifically on        of Audits in a memorandum.
issues, goals, and initiatives affecting both functions.      In both instances, the actions taken as a result of these
Beyond the interaction between components. these              referrals are tracked through the Inspector General
conferences reinforce the element of unity and                Information System.                                          19
     Input to Audit Plan                                            The contracting officer advised the firm of the audit
     Information identified through investigation can be an         results and requested either a refund of the $688.685 or
     invaluable tool in identifying areas requiring audit           an explanation as to why this amount should not be
     coverage. In addition to the referral system previously        refunded. The firm. without agreeing that a price
     described. input to the annual audit plan is actively          reduction or defective pricing violation had occurred.
     sought from our investigative staff. In fact, OIG policy       offered $125,000 to settle the two contracts audited and
     requires our investigative staff to furnish statements         all other outstanding GSA contracts. The contracting
     detailing recommended audit areas for use in the               officer rejected this offer.
     development of the plan.                                       Through an interdisciplinary meeting, our Denver
     Likewise, statements are also solicited from Counsel to        Field Investigations Office was advised of these events.
     the IG. This office's involvement in legislation/regula-       Our SAC determined that the case had fraud potential
     tion review and civil remedies is particularly useful in       and advised the contracting officer to suspend negotia-
     identifying matters requiring audit coverage.                  tions with the firm and take no further administrative
                                                                    action. He obtained a Grand Jury subpoena for all of
     Policy Development                                             the firm's records pertaining to the two contracts
     The GSA OIG system for policy development and pro-             audited plus 11 other GSA contracts within the con-
     mulgation has been designed to ensure interoffice              tractual limits for audit. The firm, based upon the
     coordination during the development, preparation,              efforts of the SAC, subsequently agreed to voluntarily
     and clearance of all issuances. These provisions               provide access to all records in return for withdrawal
     ensure that each component office has an opportunity           of the subpoena. This provision was met and our
     to review and comment on each policy statement. Sug-           investigators initiated their review.
     gested changes resulting from such reviews are then            In late April 1983, the firm, without admitting price
     incorporated, as appropriate, in the final issuance.           reduction or defective pricing violations, offered GSA
     This system keeps all component offices apprised of            $1.1 million to settle the issues. This figure, which was
     procedural changes or new policies as they occur. It           calculated using the same procedures and techniques
     has the advantage of allowing the lead component to            presented in the audit report, was supported by infor-
     benefit from the insights of other OIG elements, while         mation provided by the firm for the six years covered
     also allowing these elements to assess the impact these        by all of the contracts. GSA delayed its decision on this
     changes might have on their operations, including the          offer pending OIG review of the calculations.
     need to revise their own procedures.
                                                                    The subsequent audit questioned some of the assump-
     3. Activities for Collaborative Effort                         tions and procedures utilized by the firm and dis-
                                                                    closed new problem areas. The OIG's Data Processing
     Operational Surveys                                            Systems Audit Division used computer-assisted tech-
     Operational surveys are limited scope reviews of               niques to review sales and quantify Government
     agency activities undertaken by multidisciplinary              claims against the contractor. These data were utilized
     teams of auditors, investigators, and inspectors, under        to identify additional discounts that should have been
     the general direction of the Office of Policy, Plans, and      realized by GSA. Negotiations resumed in June 1983
     Management Systems. Utilizing their individual skills          and culminated in a negotiated settlement of $2 mil-
     in tandem, the teams review programs or operations             lion. For purposes of reporting this $2 million recovery,
     with known or suspected vulnerabilities to fraud,              we have included it as a sustained cost recovery orig-
     waste, abuse, and mismanagement. The surveys are               inating through audit; however, the final settlement
     designed as proactive assessments and result in three          represents an amount shared by OIG components and
     work products: advisory management reports for GSA             is truly a joint accomplishment of Audits, Investiga-
     officials, referrals for audit, and referrals for investiga-   tions, and Counsel to the IG.
     tion. As such, they represent an important coordina-
     tion initiative that transcends organizational lines.          Throughout this effort. Counsel to the IG played a
                                                                    major role in providing legal advice and coordinating
     C. Coordination Achievements                                   the Government negotiations team. Integral to the suc-
                                                                    cess of the final outcome was coordination with GSA's
     We believe that the accomplishments detailed pre-
     viously in this report attest to the benefits of coordina-     Offices of General Counsel and Federal Supply and
     tion among OIG components. In addition, the                    Services as well as the Department of Justice.
     following narratives illustrate unique achievements            2. Operational Survey of Buildings
     that could not have been attained without coordinated
     activity.                                                          Management Field Office
                                                                    The first operational survey, conducted in conjunction
     1. Settlement for $2 Million                                   with our fraud prevention program, reviewed a major
     In October 1981, auditors in our Denver, Colorado, field       buildings management field office in Washington, D.C.
     office initiated a price reduction/defective pricing           The impetus behind the operational survey program
     audit of two multiple award schedule contracts for             came from a perceived need to focus special attention
     industrial solvents and laundry products. The audit            on those activities which have had a history of fraud
     disclosed that the contractor had failed to provide            and to respond to Congressional concerns that follow-
     complete and accurate pricing data in its proposal             up was, in fact, being performed. The survey team,
     and, in accordance with the price reductions clause of         comprised of investigators, inspectors, and auditors,
     the contract, our June 17, 1982 audit report recom-            concentrated on those types of procurement actions
20   mended a recovery of $688,685.                                 proven vulnerable in the past. Over 550 procurements,
covering a period of two years, were evaluated; some          many of these referrals involved operations external to
112  were reviewed in detail and physically inspected.        the field office actually under review. They encom-
The survey also included an evaluation of the overall         passed regional buildings management operations,
operations of the field office. Adherence to established      space and construction management issues, oversight
policies and procedures was evaluated as was the ade-         activities, and safety hazards.
quacy of internal controls. Interviews were conducted
with tenant agencies. contractor representatives, and         The survey also resulted in recommendations to cor-
unsuccessful bidders on procurement actions.                  rect deficiencies identified in 15 procurement areas,
                                                              i.e., bidding, acceptance of workmanship, estimates,
While the survey showed that this field office was gen-       segregation of duties, etc. These recommendations
erally well run and efficient, it did result in five inves-   were made to management via memoranda. We have
tigative and three audit referrals. The former involved       requested a management response detailing the cor-
possible instances of wrongdoing, while the latter are        rective action they plan to take as a result of these
intended to provide areas for indepth review of poten-        recommendations.
tially major management problems. Significantly,




                                                                                                                        21
     SECTION VIII -- OTHER ACTIVITIES
     In addition to the efforts summarized in other sections     3. Application of ADP Audit
     of this report, the OIG- has also undertaken special ini-
     tiatives designed to promote economy and efficiency             Techniques
     in its own operations. Selected summaries of the more       The GSA OIG has had a group of headquarters per-
     significant initiatives follow. This Office also partici-   sonnel, the Data Processing Systems Audit Division,
     pated in GovernmentWide efforts to improve economy          devoted to automated data processing (ADP) auditing
     and efficiency through projects sponsored by the Presi-     for some time. However, we share the view of the PCIE
     dent's Council on Integrity and Efficiency (PCIE).          and the President's Private Sector Survey on Cost Con-
                                                                 trol that ADP can also be an extremely valuable tool for
     A. OIG Management Initiatives                               the non-ADP-specialist auditor and investigator.
     During this six-month reporting period, efforts pro-        We are therefore participating fully in the POE project
     gressed on initiatives previously detailed in our last      to upgrade auditor and investigator ADP skills
     Report to the Congress. Other initiatives designed to       through procurement of and training in microcom-
     improve the functioning of this Office were imple-          puters. During this reporting period, we procured five
     mented for the first time this period.                      microcomputers and sent an initial OIG contingent for
     1. Appraisals of Component Offices                          microcomputer training. We intend to schedule a sub-
                                                                 stantial number of additional staff for training in Fiscal
     This period, the Office of Policy, Plans, and Manage-
                                                                 Year 1984. We also expect to procure a limited number
     ment Systems implemented a systematic program for
                                                                 of additional microcomputers as specific needs and
     reviewing the economy, efficiency, and effectiveness of
                                                                 applications are identified.
     OIG components. This program is not only responsive
     to the need for feedback information on our operations,     The emphasis on the use of ADP as an audit and inves-
     but also conforms to the internal control evaluation        tigative tool produced some impressive results during
     requirements imposed by the Federal Managers'               this reporting period. As discussed in the preceding
     Financial Integrity Act.                                    section on Coordination, the use of such techniques
                                                                 contributed, in part, to a $2 million settlement as
     Our first appraisal focused on the operations of our
                                                                 opposed to the $688,685 initially proposed through
     audit and investigation field offices in Boston, Mas-
                                                                 audit. Through specially developed software, six years
     sachusetts. Through an interdisciplinary peer group
                                                                 of financial records were reviewed in a timely fashion,
     review, we were able to identify several areas that could
                                                                 and the basis for additional claims was established.
     be improved. Appropriate action has been initiated to
     bring about these improvements. At the same time, we        Our Data Processing Systems Audit Division also
     concluded that our systems for internal controls were       developed an audit software package that will assist
     generally operating effectively in the Boston field         our internal auditors in analyzing procurement trans-
     offices.                                                    actions during internal reviews, especially those
                                                                 addressing the operations of GSA's buildings manage-
     Current plans call for the review of at least four field
                                                                 ment field offices. The package has been successfully
     offices during Fiscal Year 1984.
                                                                 tested and has already been utilized to identify a
     2. Audit Planning Workshop                                  potential fraud case. Nationwide implementation of
     In July 1983, the OIG held its first audit planning work-   the software package will be completed in Fiscal Year
     shop. The purpose of this and future workshops is to        1984.
     determine areas for audit focus and develop audit pri-      4. Audit Report Evaluations
     orities for the upcoming fiscal year. They are intended     The audit report evaluation program initiated during
     to ensure that all components within the Office of          the last reporting period continues to progress. As an
     Audits playa significant role in the development of         added dimension, this program is being coordinated
     the Annual Audit Plan.                                      with appraisals of component offices. Future efforts in
     Using a task group approach, attendees utilized the         this area will continue to emphasize both the random
     Inventory of Auditable Entities and other source mate-      selection of reports and coordination of these evalua-
     rial to identify prioritized issue areas. A total of 14     tions with our onsite field office appraisals.
     issue areas were seen to be of major importance to the
     GSA in Fiscal Year 1984. The task groups individually       5. Professional Standards for
     analyzed each area assigned to them and developed               Audit Performance
     specific audit approaches. The collective results of the    This period, we developed and presented a compre-
     individual groups were then evaluated by the work-          hensive course on the GAO standards for audit of gov-
     shop at large.                                              ernmental organizations, activities, and functions.
     As a result, our audit plan for Fiscal Year 1984 not only   Presentations were made to our audit staff in each field
     reflects the best judgments of our audit directors, but     office as well as headquarters.
     also responds to the priorities reflected in our inven-     The course presents an indepth review of the GAO
     tory and the issues that we believe will impact most on     standards and provides for their discussion in a work-
     GSA operations.                                             shop setting. It also stresses OIG policies and pro-

22
cedures relating to the preparation of workpapers and       mation during briefings. presentations. meetings, etc.;
the referencing of reports.                                 and how to recognize and address the differing con-
                                                            cerns and objectives of OIG client groups.
6. Improved Writing Techniques
The primary work product of the OIG is written re-          B. Projects Sponsored by the
ports. Recognizing that our overall effectiveness is
integrally tied to our ability to effectively communi-         PCIE
cate the results of our audits and investigations, we       During the period, the OIG continued to participate in
sponsored a course to improve the overall writing abil-     the interagency projects sponsored by the POE. Our
ity of the OIG staff. Auditors and investigators nation-    specific involvement is delineated by project.
wide attended this twa-day training session designed
to enhance report organization, presentation, and           1. Procurement Debarment and
writing.                                                        Suspension Project
                                                            This project, aimed at strengthening the Government's
7. Convincing DIG Clients to Take                           debarment and suspension processes, is now in its
    Needed Corrective Action                                final phase. Efforts are being focused on facilitating
                                                            Governmentwide implementation of Policy Letter 82-1
The ultimate objective of OIG activities is to ensure       issued by the Office of Federal Procurement Policy, and
that needed improvements are made in GSA programs           FPR Temporary Regulation 65. These documents
and operations; and, as noted above, audit and inves-       provide for Governmentwide debarment and suspen-
tigative reports are the standard vehicles that we use in   sion, and set forth the debarment/suspension policies
pursuit of that objective. However, these vehicles are      and procedures that govern individual agency pra-
effective only to the extent that we can convince OIG       ceedings.
clients of the objectivity and significance of our find-
ings, and the importance of their taking corrective         2. PCIE Prevention Committee
action. To a very large extent, the final convincing         Under the aegis of the POE Prevention Committee,
takes place during audit exit conferences, meetings          GSA's Inspector General serves as Chairperson of two
with top-level management officials, and discussions         subcommittees: Legislative· and Regulatory Review,
with U.S. Attorneys and the Department of Justice.           and Procurement and Contracts. Each subcommittee
Over the last several years, this Office has increasingly    is tasked with identifying and compiling the best
recognized both the importance of these face-ta-face         existing techniques for preventing waste, fraud, and
dealings, and the traditional lack of OIG emphasis on       mismanagement, including those in use in the Federal
verbal and interpersonal skills. As a result, during this   community, State governments, and private industry,
period we conducted a twa-day training session for          where appropriate. Once compiled, these best prac-
audit and investigative field and division directors.       tices will be disseminated to all OIGs and other inter-
The course focused on how to effectively present infor-     ested parties.




                                                                                                                      23
     SECTION IX - STATUS OF SIGNIFICANT
     RECOMMENDATIONS MADE IN PREVIOUS
     REPORTS
     This section presents the significant audit recommen-       Rico, found that over $580,000 in unnecessary costs
     dations highlighted in previous Reports to the Con-         were incurred and additional funds were wasted due
     gress that are not yet fully implemented. The Office of     to improper administration of the construction con-
     Audit Resolution, which acts as staff to the Audit Fol-     tract. In our last Report to the Congress, we reported
     lowup Official in tracking implementation of resolved       that the Office of Audit Resolution considered all of the
     recommendations, provided the status information on         recommendations implemented, but was carrying our
     resolved recommendations. The remaining material            recommendation to initiate recovery action as an open
     was prepared by the OIG. This information has been          item until the money was actually recovered.
     separated into three major subdivisions to draw a dis-
     tinction between the reasons for lack of implementa-        An OIG implementation review found that the region
                                                                 did not take proper steps to implement the action to
     tion.
                                                                 recover overpayments to the contractor. The first
     A. Significant                                              demand letter to the contractor was not sent by regis-
                                                                 tered mail and, although not answered, no followup
        Recommendations Which                                    action was taken for five months. Therefore, in our
                                                                 June 22, 1983 report, we recommended that the
        Have Not Been Resolved or                                Regional Administrator ensure that all future claim
        Which Have Not Been                                      actions are sent via registered mail with a return
                                                                 receipt requested. and that timely followup communi-
        Satisfactorily Implemented                               cation occur on all claim actions. We also recom-
                                                                 mended that the Assistant Regional Administrator for
     Inspection of the Lease Construction                        Public Buildings and Real Property ensure that con-
     of a Laboratory Facility                                    stant contact is maintained with GAO so as to expedite
     Period First Reported: October    1, 1982   to March 31,    the disposition of the subject claim action.
     1983
                                                                 The Regional Administrator concurred in our recom-
     This review disclosed that inadequate contract admin-       mendations. The Commissioner, PBS, has not yet
     istration and a lack of technical input in the con-         responded to the report.
     ceptual, design, and construction phases of a
     laboratory facility for the Environmental Protection        The Office of Audit Resolution closed our original
     Agency has resulted and/or will result in Government        report upon issuance of our implementation report.
     overpayments and losses of over $1.5 million. As of         They will track the implementation review recom-
     September 30, 1983, this report was unresolved.             mendations when that report is resolved by the OIG.
     It remains unresolved because the corrective actions
     being pursued by the region are so involved and com-        B. Significant
     plicated that the region has not yet been able to formu-
     late a comprehensive time-phased action plan.
                                                                    Recommendations Being
     According to GSA audit resolution policy, resolution           Implemented According to
     occurs only when the OIG agrees with management's
     written response and their comprehensive action plan
                                                                    Established Milestones
     for implementation.                                         Controls Over Costs for Repairs,
     It should be noted, however, that the Regional Admin-       Alterations, and Improvements to
     istrator, in response to the draft report, concurred in
     the major recommendations. In fact, over the last six       Leased Space
     months, the region has taken many corrective actions        Period First Reported: October 1, 1982 to March 31,
     to implement these recommendations. We will con-            1983
     tinue to closely monitor the region's progress and will     This audit found that GSA policies and procedures
     strive for resolution in the first quarter of Fiscal Year   were inadequate to effectively control the cost of
     1984.                                                       repairs, alterations, and improvements to leased space.
                                                                 Accordingly, we made four recommendations to car-
     Contract for New Federal Office                             rect the identified problems.
     Building Improperly Administered                            Implementation is proceeding according to estab-
     Period First Reported: October 1, 1981 to March 31,         lished milestones. Full implementation is not sched-
     1982                                                        uled until 1984 .
     Our review of the construction of the new Federal
     office building and courthouse in Hato Rey, Puerto
24
Controls Over Lease Renewal Dates                           buildings and major alteration projects found that this
Period First Reported: October 1, 1982 to March 31,         mandate had created customer dissatisfaction and
1983                                                        wasted millions of dollars. To correct the identified
                                                            problems, we made six recommendations.
This audit disclosed that a special review initiated by
PBS officials to reconcile information in the PBS Infor-    Partial implementation has been achieved on the rec-
mation System (PBSIIS) to individual lease files was        ommendations to develop and implement an office
inadequate in several regions. Significant errors were      acoustics training program and to develop specific
still present in the PBSIIS data after the completion of    guidelines for approving/disapproving agency re-
the reconciliation. Therefore. we recommended that          quests for ceiling-high partitions. Implementation of
specific actions be taken to improve controls over lease    the remaining four recommendations is proceeding
data.                                                       according to established milestones. The milestones
                                                            for corrective action call for full implementation by
One recommendation remains unimplemented due to
                                                            March 1984.
time considerations. It requires that periodic reviews
be performed in each region to ensure that procedures       Poor Inspection of Repair and
for managing and controlling lease data are fully
implemented. Reviews have been scheduled starting           Alteration Contract Work
in December 1983.                                           Period First Reported: April!' 1982 to September 30,
                                                            1982
Implementation of the Public                                Our review of repair and alteration work on a ware-
Buildings Cooperative Use Act                               house disclosed numerous contract deficiencies,
Period First Reported: October 1, 1982 to March 31,         defects, and omissions which went unnoticed by GSA
1983                                                        inspectors. Accordingly, we made nine recommenda-
Our review disclosed a number of problems associated        tions for corrective action; eight of the recommenda-
with the implementation of the Public Buildings Co-         tions have been implemented.
operative Use Act of 1976. The most significant was         The remaining recommendation, which required that
that legislative and economic constraints prevent GSA       the contracting officer have the contractor perform the
from effectively implementing its provisions. We made       specified work or provide a credit, remains open rela-
18 recommendations to correct this and other findings.      tive to one contract item - the pilasters which were
Implementation is proceeding in accordance with             never installed. The region determined that the pi-
established milestones. Full implementation of all rec-     lasters are a necessary structural requirement and re-
ommendations is scheduled to occur in Fiscal Year           jected an attempt by the contractor to provide a credit
1984.                                                       for these items. Accomplishment of the work has been
                                                            complicated and delayed by the fact that the con-
Improper Recording of Obligations                           struction company was sold to a new owner. The con-
Period First Reported: October 1, 1982 to March 31,         tracting officer is following up; completion is expected
1983                                                        by September 1984.
A multiregional review of obligations recorded for
GSA appropriations found overstatements at the close        Contracting Procedures for
of Fiscal Year 1981. Implementation has been com-           Commercial Appraisal Services Do
pleted on all of the recommendations in three of the        Not Assure Adequate Competition
four audits on which we reported. One recommenda-           Period First Reported: April 1, 1982 to September 30,
tion in the fourth audit, involving the correction of the   1982
vendor payment history, remains unimplemented.
Completion is scheduled for December 1984.                  Our audit of the contracting procedures utilized to
                                                            award commercial appraisal service contracts found
Controls Over 1tavelTIckets                                 that current practices do not assure adequate competi-
Period First Reported: October 1, 1982 to March 31,         tion. We made three recommendations to correct the
1983                                                        deficiencies disclosed; two have been implemented.
Our review of the controls used by GSA to identify          The third recommendation, involving the revision of
unused and partially used travel tickets found them to      the appraisal handbook, is still not fully implemented.
be inadequate. Accordingly, we made two recommen-           The original milestone date of December 31,1982 has
dations to establish accounting controls to comple-         been revised to November 30, 1983. An instructional
ment existing administrative controls. Implementa-          memorandum was sent to the regions containing in-
tion has been completed on one recommendation.              terim instructions pending completion of the hand-
The recommendation to amend the Federal Property            book.
Management Regulations has not been completed.
Completion is scheduled for December 1983.
                                                            Deteriorated Roof Adversely
                                                            Affecting Stockpiled Asbestos
Application of the ICB                                      Period First Reported: April 1, 1982 to September 30,
System Concept                                              1982                                                       .
Period First Reported: October 1, 1982 to March 31,         Our review of the National Defense Stockpile storage
1983                                                        program disclosed that water leaking through the roof
Our review of the mandatory use of Integrated Ceiling       of the Baton Rouge Depot, Baton Rouge, Louisiana,
and Background (IeB) systems in all new Federal             had caused deterioration of the burlap and plastic bags        25
     covering stored asbestos. We recommended that               The remaining open recommendation required that
     immediate action be taken to resolve this problem.          action be taken to determine the true fund needs of the
     In response to our recommendation. a task force devel-      CSF and, upon determination, action be taken to
     oped a plan to either sell or bury the asbestos by May       obtain the necessary funds. This action was scheduled
     1983. This date was. later extended to December 1.           for completion in April 1983.
     1983.                                                        On May 12,1983, the Commissioner, PBS, advised the
     Management attempted to sell the asbestos but found          Inspector General that due to specific actions the PBS
     that this was not a viable option. Negotiations are now     had taken, the perceived urgency for additional fund-
     in process with confractors to remove and bury the           ing no longer existed. Therefore, new obligational
     asbestos. GSA's Federal Property Resources Service          authority would be requested in the Federal Buildings
     and Public Buildings Service are also negotiating            Fund budget submission for Fiscal Year 1985. The
     what actions should be taken relative to the depot. All     Inspector General concurred in this action. Implemen-
     actions should be completed by June 1985.                   tation will therefore be completed in December 1983
                                                                  when the budget request is submitted.
     Prompt Action Needed to Preserve
     America's Recorded Heritage                                 C. Significant
     Period First Reported: October 1. 1981 to March 31,
     1982
                                                                    Recommendations Not Being
     Our audit of the National Archives and Records Ser-            Implemented for Reasons
     vice found that intrinsically valuable historical docu-
     ments were not being adequately preserved and
                                                                    Beyond GSA's Control
     protected. To correct the identified deficiencies, we       Termination of the Nashville Union
     made eight recommendations for corrective action;           'frain Station Rehabilitation Project
     corrective action has been completed on four recom-         Period First Reported: October 1, 1982 to March 31,
     mendations.                                                 1983
     The remaining recommendations, involving the con-           Our review of the GSA project to rehabilitate the
     duct of environmental testing and the development of        Nashville Union Train Station concluded that the proj-
     standards, were scheduled for completion by October         ect was emnomically unsound and could not be com-
     1983. This date was extended to June 1985.                  pleted within the approved funding. Accordingly, we
     Reimbursable Work Authorizations                            recommended that the Congress be advised of the rea-
     Period First Reported: October 1, 1981 to March 31,         sons why the prospectus could not be satisfied and
     1982                                                        that GSA propose terminating the project and dispos-
                                                                 ing of the facili ty.
     We found that GSA was performing work for tenant
     agencies under reimbursable agreements without              Implementation action has been delayed by the filing
     Congressional review and approval. We recommended           of a lawsuit against GSA by an historical organization
     that GSA develop procedures which would require             in Nashville. PBS and regional officials are in the pro-
     tenant agencies to cite appropriations when request-        cess of responding to the lawsuit. Implementation
     ing reimbursable services in order to demonstrate Con-      action will resume upon its settlement.
     gressional approval.                                        An Approach to Improving GSA's
     The revision of GSA Form 2957-RWA, the remaining            Leasing Program
     unimplemented action, was originally scheduled for          Period First Reported: October 1, 1981 to March 31,
     January 31, 1983, but was delayed until September           1982
     1983 due to management's need to solidify policy in
     this area. As of September 30, 1983, revision was still     This compendium report disclosed that GSA must
     not accomplished, but interim compliance had been           take a more aggressive role in establishing and enforc-
     achieved. Full implementation is now scheduled for          ing policy for leasing. Toward this end, we made 14
     December 1983.                                              recommendations; 13 have been implemented.
                                                                 The remaining recommendation, addressing the de-
     Inadequate and Improper Financial                           velopment of legislative proposals that provide lati-
     Management of the Construction                              tude for tailoring space requirements to individual
     Services Fund                                               situations, cannot be implemented until the revision of
     Period First Reported: October 1, 1981 to March 31,         the Uniform Federal Accessibility Standard (UFAS) is
                                                                 completed. The UFAS revision has been delayed by the
     1982
                                                                 Architectural and 'fransportation Barriers Compliance
     Our review of the Construction Services Fund (CSF)          Board due to the number of changes required.
     disclosed serious improprieties relative to its financial   Milestone dates have been extended to January 1984
     management. The audit report contained nine recom-          pending completion of the UFAS revision.
     mendations; corrective action has been completed on
     eight of these recommendations.




26
APPENDICES
APPENDIX I                                                A30351/7 /F /830411 Preaward Evaluation of Pric-
                                                          ing Proposal, BSN Corp .. Solicitation No. lOPN-HRS-
                                                          0215 04/11/83
                                                          A30353/2/F /830412 Preaward Evaluation of Pric-
Report Register .                                         ing Proposal, Apex Investigations and Security Co ..
                                                          Inc .. Subcontractor Under U. S. Small Business
contract Audits                                           Administration. Solicitation No. 2PPB-ED-24, 133
A30302/5/F /830401 Preaward Evaluation of Price           (NEG) 04/12/83
Proposal, Diamond Detective Agency, Inc., Contract        A30438/X/F /830412 Evaluation of Price Proposal,
No. GS-05B-42370, Modification No.2 04/01/83              Dataproducts New England, Inc .. Solicitation No.
A30328/9/F /830401 Letter Report - Preaward               GSC-KESA-X-00022-N 04/12/83
Evaluation Pricing Proposal, EIP Microwave, Inc., San     A30439/X/F /830412 Evaluation of Price Proposal,
Jose, California, Solicitation No. FGS-O-36405-           The Mitre Corp., Solicitation No. GSC-CDAS-00010-
N-12-2-82 04/01/83                                        N 04/12/83
A30342/1/F /830401 Preaward Evaluation of Pric-           A30268/5/F /830413 Preaward Evaluation of Price
ing Proposal, Lewis Corp., Solicitation No. 7CF-5225/     Proposal, AXIA. Inc., Nestaway Division. Solicitation
V5/7YC 04/01/83                                           No. 10PN-NCS-Ol08 04/13/83
A30363/3/F /830401 Preaward Evaluation of Pro-            A30334/5/F /830413 Letter Report - Lease Escala-
posal Submitted for Multiple Award Schedule Con-          tion Proposal, Detroit Associates Limited Partnership,
tract, Metropolitan Wire Corp., Solicitation No. 10PN-    Lease No. GS-05BR-9585 04/13/83
NCS-0108 04/01/83
                                                          A30277!W /F /830414 Preaward Evaluation of Pric-
A30100/5/F /830404 Special Review of Financial            ing Proposal, Government Marketing Services, Inc.,
Condition, Kinross Park Partnership, Contract No. GS-     Solicitation No. YGE-Yl-75235-N-1-6-83 04/14/83
05-DR-(O)-4084 04/04/83
                                                          A30376/4/F /830414 Letter Report -Reviewof
A30275/W /F /830404 Claim for Increased Costs,            Barnhill Contracting Company's Compromise Settle-
Gilles and Cotting, Inc., Contract No. GS-11B-08587       ment Offer, Claim for Damages Due to Contract Termi-
(NEG) 04/04/83                                            nation, Contract No. GS-04B-16998 04/14/83
A30396/4/F /830404 Letter Report - Preaward               A30060/1/F /830415 Postaward Audit ofJames
Review of Colbar, Inc., Proposal to Provide Janitorial    River Graphics, Inc., Contract Nos. GS-OOS-23263 and
Services, London and Carbin, Kentucky, Contract No.       GS-OOS-41158 04/15/83
GS-04B-83613 04/04/83
                                                          A30356/W /F /830415 Letter Report - Preaward
A30308/8/F /830405 Lease Escalation Proposal, Del         Evaluation of Pricing Proposal, W. H. Brady Co., Solic-
E. Webb Realty and Management Co., Prudential Plaza       itation No. 7CF-522141L5/7YC 04/15/83
Building, Denver, Colorado, Lease Nos. GS-08B-I0S69
                                                          A303 59/3/F /830415 Evaluation of Pricing Pro-
and GS-ORB-I0870 04/05/83                                 posal for Automated Systems Maintenance, Brown
A30352/7 /F /830405 Preaward Evaluation of Pric-          Boveri Control Systems, Inc., Solicitation No.
ing Proposal, Bulk Chemical Distributors, Inc., Solic-    GS-I0B-50936-01 04/15/83
itation No. 6PR-W-Jl088-B6-NA 04/05/83                    A30367 /2/F /830415 Operating Costs for Calendar
A30197 /9/F /830406 Preaward Evaluation of Pric-          Year 1982 for the ECOM Building, Tinton Falls, New
ing Proposal, Becton Dickinson Labware, Oxnard, Cal-      Jersey, Lease No. GS-02B-15526 04/15/83
ifornia,    Solicitation No. FGS -P -36404-N-8-9-82       A30400/6/F /830415 Preaward Evaluation of Pric-
04/06/83                                                  ing Proposal, SFI Land Co., Kansas City, Missouri,
A30369/1/F /830406 Letter Report -Preaward                Lease No. GS-06B-60118 04/15/83
Evaluation of Sales Information, Acoustical Screens       A30398/4/F /830418 Letter Report - Lease Escala-
Corp., Solicitation No. FNP-F5-1272-N 04/06/83            tion Review, 101 Marietta Building, Atlanta, Georgia,
A30145/2/F /830407 Costs Billed Through May 7,            Contract No. GS-04B-15730 04/18/83
1982 (CPFF), Lasker-Goldman Corp./Goldman Associ-         A30076/9/F /830419 Preaward Evaluation of Pric-
ates, USDA Contract No. 50-3K15-0-23 04/07/83             ing Proposals, California Power Systems, Inc., Solic-
A30291/8/F /830408 Preaward Evaluation of Pric-           itation No. FTP-BS-39221-N 04/19/83
ing Proposal, Chemonics Industries, Inc., Phoenix,        A30399/6/F /830419 Preaward Evaluation of Price
Arizona, Solicitation No. 8YCG-S4-DSOOl 04/08/83          Proposal, Ridley Southside Janitorial Service, Inc.,
A30348/4/F /830408 Preaward Evaluation of Pric-           Kansas City, Missouri, Contract No. GS-06B-37566-
ing Proposal, Huntsville Associates, Lessor, Harold       01 04/19/83
Construction Corp., Inc., Contractor, Alterations, Bal-   A30397 /4/F /830420 Letter Report           Review of
listic Missile Defense Building, Huntsville, Alabama,     Overhead Rate for McElvy, Jennewein, Stefany and
Lease No. GS-04B-12162 04/08/83                           Howard, Contract No. GS-04B-81404 04/20/83
A30256/2/F /830411 Preaward Evaluation of Pric-           A30445/X/F /830420 Evaluation of Price Proposal,
ing Proposal, Dranetz Engineering Laboratories, Inc.,     Quanta Systems Corp., Solicitation No. GSC-CDPCE-
Solicitation No. FGS-O-36405-N 04/11/83                   0021-N 04/20/83
A30347 /6/F /830411 Preaward Evaluation of Price          A30462/4/F /830420 Letter Report - Walsh-Healey
Proposal, Rawlings Sporting Goods Co., St. Louis,         Act Review of Johnson-Lancaster, Inc., Solicitation No.
Missouri, Solicitation No. 10PN-HRS-0215 04/11/83         10PN-HRS-0215 04/20/83                                    29
     A30214/2/F /830421 Claim for Increased Costs,               A30383/7 /F /830429 Preaward Evaluation of Pric-
     Custodial Guidance Systems, Inc., Contract No.              ing Proposal. Ansell, Inc., Tinton Falls, New Jersey,
     GS-llC-10008 04/21/83                                       Solicitation No. FGA-W-X3393-N-3-1-B3 04/29/83
     A30278/7 /F /830421 Postaward Review of Virginia            A30401/6/F /830429 Preaward Evaluation of Pric-
     Manufacturing Co., Inc., Federal Supply Service, Con-       ing Proposal. Vacuum General, Inc., San Diego, Califor-
     tract No. GS-00S-20223 04/21/83                             nia. Solicitation No. YGS-F-36406-N 04/29/83
     A30317 /5/F /830421 Preaward Evaluation of Price            2C206660706/6/F /830429 Postaward Audit ofVes-
     Proposal, AM International, Inc., DIP, Multigraphics        tal Laboratories, St. Louis, Missouri, Contract No. GS-
     Division, Solicitation No. YGE-MB-75239-N-OI-04-83          07S-05154 04/29/83
     04/21/83                                                    2A208640003/3/F /830429 Evaluation of Pricing
     2K203701111/W /F /830422 Cost Plus Award Fee                Proposal, Rishel Furniture Co., Contract No. GS-OOS-
     Contracts, General Maintenance Service Co., Inc., Con-      5B023 04/29/83
     tract Nos, 03C8102101 (NEG)-2 and 03C9003501                A30260/9/F /830502 Letter Report - Preaward
     (NEG)-2 04/22/83                                            Evaluation of a Pricing Proposal, Hewlett Packard Co.,
     A30377 /4/F /830422 Preaward Evaluation, Mea-               Palo Alto, California, Solicitation No. FGS-0-36405-
     surements Group, Inc., Solicitation YGS-F-N-2-11-83         N-12-2-B2 05/02/83
     04/22/83                                                    A30371/1/F /830502 Preaward Evaluation of Offer
     A30447/5/F/830422 Letter Report-Preaward Re-                Submitted by Setra Systems, Inc., Solicitation No.
     view of Succeeding Lease, 1560 E. Jefferson St., Detroit,   YGS-F-36406-N 05/02/83
     Michigan, Lease No. GS-05B-13884 04/22/83                   A30433/2/F /830504 Preaward Evaluation of a
     A30451/5/F /830422 Letter Report - Preaward                 Pricing Proposal for ArchitectiEngineering Services,
     Lease Review, Manly Miles Building, East Lansing,           The Gruzen Partnership, New York, Contract No.
     Michigan, Lease No. GS-05B-14060 04/22/83                   GS-I1B-27404 05/04/83
     A30341/1/F /830425 Evaluation of Pricing Propos-            A30384/7 /F /830505 Preaward Evaluation of Pric-
     al, Hugh Stubbins and Associates 04/25/83                   ing Proposal, American of Martinsville, Solicitation
     A30355/W /F /830425 Lease Alteration Proposal,              No. FNMS-S1-1116-N-1-28-83 05/05/83
     Donohoe Construction Co., Inc., Lease No. GS-               A30434/6/F /830505 Preaward Evaluation of Pric-
     03B-70005 04/25/83                                          ing Proposal, Montgomery Elevator Co., Kansas City,
     A30357 /W /F /830425 Lease Alteration Proposal,             Missouri, Solicitation No. GS-06B-37584-01
     Donohoe Construction Co., Inc., Lease No. GS-03B-           05/05/83
     00052 04/25/83                                              A30316/5/F /830506 Preaward Evaluation of Pric-
     A30375/5/F /830426 Letter Report - Preaward                 ing Proposal, 3MIPrinting and Reprographic Prod-
     Evaluation of Pricing Proposal, Supplemental AlE            ucts Division, Solicitation No. YGE-MB-75239-N-01-
     Contract for Michigan and Ohio, Eberle M. Smith             04-B3 05/06/83
     Associates, Inc., Contract No. GS-05BC-90466                A30409/8/F /830506 Lease Escalation, Equity Man-
     04/26/83                                                    agement, Inc., Durango Federal Building, Durango,
     A30408/8/F /830427 Preaward Evaluation of Pric-             Colorado, Lease No. GS-08B-09877 05/06/83
     ing Proposal, Andrew Henderson Heating and Plumb-           A30326/9/F /830509 Preaward Evaluation of Pric-
     ing Co., Project No. R-UT-B2-012 04/27/83                   ing Proposal, Spacemaster Enterprises, Inc., Porta
     A30476/5/F/830427 Letter Report-Preaward Re-                House, Solicitation No. GS-OB-1496 05/09/83
     view of Lease Extension, 601-777 -BOl Rockwell Ave-         A30504/6/F /830509 Preaward EvaluatiGln of Pric-
     nue, Cleveland, Ohio, Lease No. GS-05B-13059                ing Proposal, NCT Services, Inc., Kansas City, Mis-
     04/27/83                                                    souri, Contract No. GS-06B-37578-01 05/09/83
     A30036/5/F /830429 Postaward Audit of Multiple              A30248/3/F /830510 Lease Escalation Proposal Se-
     Award Contract, Magnetic Audio-Visual Products              curity Investment Co., Dickinson High Rise Building,
     Division/3M Corporation, Contract No. GS-OOC-               Lease No. GS-03B-6285 05/10/83
     90323, Renewal No.1 04/29/83                                A30417 /2/F /830510 Preaward Evaluation of Pric-
     A30273/W /F /830429 Construction Management                 ing Proposal, Philip A. Hunt Chemical Corp., Solicita-
     Contract, Thrner Construction Company, Contract No.         tion No. GS-OOS-41127 05/10/83
     HHS-100-76-0050 04/29/83                                    A30430/5/F /830510 Preaward Evaluation of Pro-
     A30325/6/F /830429 Evaluation of Change Order               posed Overhead Rate, The McGuire and Shook Corp.,
     Proposal (P-15), Ed Davis Construction, Inc., Lee's         Proposal No. GS-05BC-90469 05/10/83
     Summit, Missouri, Contract No. GS-06B-21050                 A30469/4/F /830511 Letter Report - Preaward Re-
     04/29/83                                                    view of A&B Maintenance Corp.'s Proposal for Jan-
     A30344/5/F /830429 Preaward Evaluation of Pro-              itorial Services at the Miami Courthouse Annex,
     posed Overhead Rate, Belli & Belli, Architects and          Miami, Florida, Contract No. GS-04B-82757
     Engineers, Proposal GS-05BC-90467 04/29/83                  05/11/83
     A30379/W/F/830429 Letter Report - Preaward                  IL120940808/8/F /830511 Letter Report - Review
     Evaluation of Pricing Proposal, Creative Signage Sys-       of Payment Made to The Lea Company, Lea Building,
     tems, Solicitation No. 7CF-52214!L5/7YC 04/29/83            Cheyenne, Wyoming, Lease No. GS-08B-09966
                                                                 05/11/83
30
IL208840202/2/F /830512 Lease Escalation Pro-              A30492/5/F /830524 Letter Report - Preaward
posal, Genesse Hopper Corp., 287 Genesse Street,           Evaluation of Pricing Proposal, Bonestroo, Rosene,
Utica, New York, Lease No. GS-02B-18146 05/12/83           Anderlik and Associates. Proposal No. GS-
A30336/2/F /830512 Lt:;ase Escalation Proposal,            05B~90471 OS/24/83
Adam Baum, 2 Easterly Ave., Auburn, New York, Lease        A30493/5/F /830524 Letter Report - Supplemen-
No. GS-02B-18740 05/12/83                                  tal AlE Contract for Indiana (Secondary), Cole Associ-
A30370/1/F /830512 Preaward Evaluation of Offer            ates, Inc .. Contract No. GS-05B~90472 OS/24/83
Submitted by Intrametrics;-Inc., Solicitation No. YGS-     A30503/6/F/830524 Preaward Evaluation of Pric-
F-36406-N 05/12/83                                         ing Proposal, Olde English Building Services, Inc.,
A305361X/F /830512 Preaward Evaluation of Pric-            Omaha, Nebraska, Contract No. GS-06B-37588-
ing Proposal, Trojan Metal Products, Solicitation No.      01 OS/24/83
FNP-C6-1146-N-1-20-83 05/12/83                             A30412/3/F /830526 Preaward Evaluation of Pric-
A30432/5/F /830513 Preaward Evaluation of Pro-             ing Proposals, Aydin Vector Division, Solicitation No.
posed Unit Prices, The Mosler Safe Co., Solicitation       GSC-CDPCE-00021-N-12-28-82 OS/26/83
No. YNP-C1-1336-N-2-23-83 05/13/83                         A30488/1/F /830527 Letter Report - Preaward Au-
A30482/3/F /830513 Preaward Evaluation of Pro-             dit of Globe Manufacturing Co., Contract No. GS-
posal Submitted for Multiple Award Schedule Con-           08S-36305 OS/27/83
tract, Flex-Y-Plan Industries, Inc., Erie, Pennsylvania,   A30444/W /F /830527 Supplemental AlE Proposal,
Solicitation No. FNP-F5-1272-N-11-19-82 05/13/83           Geier Brown Renfrow Architects, Contract No.
A305371X/F /830513 Preaward Evaluation of Pric-            GS-I1B-39001 OS/27/83
ing Proposal, EBSCO Industries, Inc., EBSCO Interiors      A30494/5/F /830527 Letter Report - Lease Escala-
Division, Solicitation No. YFNMS-S1-1116-N-1-28-83         tion Proposal, Papyrus, Limited, Partnership, Lease
05/13/83                                                   No. GS-05BR-11527 OS/27/83
A30505/61F /830516 Preaward Evaluation of Pric-            A305961X1F /830531 Preaward Evaluation of Pric-
ing Proposal, Kansas University Endowment Associa-         ing Proposal, Metrology General Corporation, Solicita-
tion, Lawrence, Kansas, Lease No. GS-06B-10626             tion No. YGS-F036406-N-2-11-83 05/31/83
05/16/83                                                   A30382/7/F /830531 Preaward Evaluation of Pric-
A30522/81F /830516 Letter Report - Preaward Re-            ing Proposal, Endevco, A Division of Becton, Dickin-
view of Eligibility as a Regular Dealer Under the          son and Co., Solicitation No. YGS-F-36406-
Walsh-Healey Act, Modular Offices and Buildings,           N-2-11-83 05/31/83
Salt Lake City, Utah 05/16/83                              A30491/41F /830531 Preaward Evaluation of Pric-
A30109/9/F /830517 LeaseEscalationProposal,                ing Proposal, Huntsville Associates, Lessor, System
Continental Development Corp., Lease No. GS-               Centers, Inc., Contractor, Alterations to Ballistic Mis-
09B-60245 05/17/83                                         sile Defense Building, Huntsville, Alabama, Lease No.
A30394/9/F /830517 Lease Escalation Claim, C&C             GS-04B-12162 05/31/83
Investments, Lease No. GS-09B-06600 05/17/83               A30514/7/F /830531 Letter Report - Selected Con-
A30362/10/F /830519 Preaward Evaluation of Pric-           tract Billings, American of Martinsville, Contract No.
ing Proposal for FSS Laboratory and Test Equipment         GS-OOS-38103 05/31/83
FSC Group 66, Part II, Section H, Tektronix, Inc.,         A30520/7/F /830531 Preaward Evaluation of Pric-
Beaverton, Oregon, Solicitation No. FGS-0-36405-           ing Proposal, Clean Sweep Building Maintenance,
N-12-2-82 05/19/83                                         Inc., Contract No. GS-07B-21333 05/31/83
A30346/7 /F /830520 Preaward Evaluation of Pric-           A3053 9/7/F /830531 Letter Report - Recomputa-
ing Proposal, Monaco Enterprises, Inc., Solicitation       tion of Home Office Overhead Costs, Owens-Corning
No. 7CF-52197!V5/7YC OS/20/83                              Fiberglass, Contract No. GS-OOB-02839 05/31/83
A30426/W /F /830520 Preaward Evaluation of Pric-           2C209470105(a)/51F/830602 Postaward Audit of
ing Proposal, Sam Gonzales, Inc., Contract No.             Multiple Award Contract, Federal Signal Corp., Con-
GS-I1B-18302 OS/20/83                                      tract No. GS-01S-07574 06/02/83
A30573/X/F /830520 Evaluation of Pricing Pro-              2C209470105(b)/5/F /830602 Postaward Audit of
posal, Afro-Lecon, Inc., Solicitation No. FSC-7105-        Multiple Award Contract, Federal Signal Corp., Con-
7125 OS/20/83                                              tract No. GS-01S-07936 06/02/83
A30479/W /F /830523 Preaward Evaluation of AlE             A30297/W /F /830602 Claim for Increased Costs,
Pricing Proposal, Glassman-Lereche and Associates,         John C. Grimberg Co., Inc., Contract No. GS-
P. c., Contract No. GS-I1B-19021 OS/23/83                  03B-78215 06/02/83
A30303/5/F /830524 Preaward Evaluation of Pro-             A30431/5/F /830603 Preaward Evaluation of AlE
posed Cleaning and Maintenance Expenses, Erwin             Pricing Proposal, Steed-Hammond-Paul Architects,
Heller and Irene Heller, Lease No. GS-06B-7485             Inc., Proposal No. GS-05BC-90473 06/03/83
OS/24/83                                                   A30521/3/F /830603 Letter Report - Preaward
A30304/5/F /830524 Cleaning and Maintenance                Evaluation of Pricing Proposal- Eastern Services,
Expenses, Erwin Heller and Irene Heller, Lease No. GS-     Inc., Solicitation No. GS-03-83-R-0034 06/03/83
06B-7485 OS/24/83
                                                                                                                      31
     A30230/5/F /830608 Letter Report - Preaward.                A30387/8/F/830623 Preaward Evaluation of Lease
     Evaluation of Pricing Proposal, Hamilton Industries,        Proposal, Rolla Development Corporation. Rolla,
     Inc.. Solicitation No. YGE- YY-75241-N-11-30-82             North Dakota, Proposed Lease No. GS-OO-
     06/08/83                                                    DM-(R)-83002 06/23/83
     A30385/7 /F /830609 Preaward Evaluation of Pric-            11120930808/8/F/830624 Posta ward Audit of the
     ing ProposaL A. Brandt Co., Inc., Solicitation No. 1-       Results of the Lease Escalation Negotiation, Lea Com-
     YNPS-S1-1116-N-1-28-83 06/09/83                             pany, Earth Laboratory Building, Arvada. Colorado,
     A30558/5/F /830609 Preaward Evaluation of Pric-             Lease No. GS-08B-10857 06/24/83
     ing ProposaL B&H, Service, Inc., Proposal No. RFP GS-       A30560/5/F/830624 Accounting System Survey of
     05B-42351 06/09/83                                          Federal Plaza Associates. Lease No. GS-05B-13381
     A30436/1/F /830610 Preaward Evaluation of Inter-            06/24/83
     royal Corp., Plainfield, Connecticut, Solicitation No.      A30393/9/F/830627 Preaward Evaluation of Pric-
     YNPS-S1-116-N-1-28-83 06/10/83                              ing Proposal, Topaz Electronics Division, Solicitation
     A30480/7 /F /830610 Letter Report - Preaward                No. YGS-F-36406-N-2-11-83 06/27/83
     Evaluation of Pricing Proposal, Texas Security Guard        A30557 /5/F/830627 Preaward Evaluation of Pric-
     Services, Solicitation No. GS-07B-21304 06/10/83            ing Proposal, Johnson and Gordon. Inc .. Solicitation
     A30368/W /F /830613 Preaward Evaluation of Lease            No. GS-05B-42376 06/27/83
     Escalation Proposal, Bell Associates, Lease No. GS-         ID202701111/W /F/830628 Collateral Savings Pro-
     03B-80082 06/13/83                                          posal, Pierce Associates. Inc., Contract No. GS-OOB-
     A30507 /6/F /830613 Preaward Evaluation of Pric-            02801 06/28/83
     ing Proposal, Ridley Southside Janitorial Service, Inc.,    A30466/2/F /830628 Lease Escalation Proposal,
     Kansas City, Missouri, Contract No. GS-06B-37582-           George & Paul Kasselman, Co., Albany Motor Pool,
     01 06/13/83                                                 Albany, New York, Lease No. GS-02B-18754 06/28/83
     2G201170707 /7 /F /830614 Review of Vehicle Rental          A30477 /10/F/830628 Preaward Evaluation of
     Agreements, American International Rent-A-Car of            Architect Engineering Pricing Proposal, Paddock and
     Seattle, Contract No. GS-07S-06259 06/14/83                 Hollingbery, Inc., U.S. Courthouse, Yakima, Washing-
     2Cll0340009/9/F /830615 Letter Report - Post-               ton, Project IWA88020 06/28/83
     award Review of Panel Concepts, Inc., Contract Nos.         A30515/2/F/830628 Preaward Evaluation of Pric-
     GS-00S-61346 and GS-00S-81365 06/15/83                      ing Proposal for Services, Torres-Beauchamp, Marvel
     A30443/W /F /830615 Preaward Evaluation of Lease            Y Asociados, Project No. IPR 83301 06/28/83
     Escalation Proposal, B.G.W. Limited Partnership, 1425       A30517 /2/F/830628 Lease Escalation Proposal,
     K St. Building, Lease No. GS-03B-5803 06/15/83              Arnot Realty Corp., 333 E. Water St., Elmira, New York,
                                                                 Lease No. GS-02B-18642 06/28/83
     A30472/9/F/830617 Lease Escalation Proposal,
     Spear Street Investment Co., Lease No. GS-09B-73348         A30599/3/F/830628 Evaluation of Pricing Proposal
     06/17/83                                                    for Operation, Maintenance, and Repair of Mechanical
                                                                 Systems and Equipment, Daugherty and Edmonds,
     A30528/W/F/830617 Preaward Evaluation of Sup-               Inc., Solicitation No. GS-03-83-R-0033 06/28/83
     plemental AlE Pricing Proposal, GormleyIWareham
     Associates, P. A. et al, Joint Venture, Contract No. GS--   A30613/2/F/830628 Preaward Evaluation of Pric-
     llB-39003 06/17/83                                          ing Proposal for Janitorial Services, J. F. Pitre Cleaning
                                                                 Corp., Subcontractors Under U.S. Small Business
     2C204860809/9/F/830620 Audit Relative to Price              Administration, Solicitation No. RFP 2PPB-ED-24,155
     Reduction and Defective Pricing, Porta House, Inc.,         (NEG) 06/28/83
     Contract No. GS-08S-35229 06/20/83
                                                                 A30283/9/F /830629 Claim for Increased Costs,
     A30563/1/F/830620 Preaward Evaluation of Pric-              C&J Enterprises, Contract No. GS-09B-50650-SF
     ing Proposal, M&H Building Services, Inc. 06/20/83          06/29/83
     A30484/W /F/830621 Preaward Evaluation of Baux-             A30427 /W /F/830629 Letter Report - Audit of Sup-
     ite Stockpile Purchase, Reynolds Metals Company,            plemental AlE Pricing Proposal, Meta Engineers, P. c.,
     Subcontractor to Bauxite Alumina Trading Co. of             Contract No. GS-11B-39002 06/29/83
     Jamaica, Ltd., Contract No. GS0083-DxxC-0004
     06/21/83                                                    A30496/5/F /830629 Lease Escalation Proposal,
                                                                 Westlake Home Improvement Associates, Lease No.
     A30607 /8/F /830621 Review of Progress Payment              GS-05B-12575 06/29/83
     No.1, B&S Fire Service Company, Contract No. GS-
     00S-64334 06/21/83                                          A30647/X/F/830629 Preaward Review, Science
                                                                 Applications, Inc. 06/29/83
     A30619/2/F/830621 Preaward Evaluation, Sony
     Corp. of America, Solicitation No. YGE-B8-75247-            A30610/5/F/830629 Preaward Evaluation of Pro-
     N-3-11 06/21/83                                             posed Unit Prices, Milbar Corp., Solicitation No. FEN-
                                                                 ED-A0113/2-N-4-12-83 06/29/83
     A30118/1/F/830623 Postaward Audit of Inforex,
     Inc. Burlington, Massachusetts, Contract No. GS-OOC-        A30506/6/F/830630 Preaward Evaluation of Pric-
     02949 06/23/83                                              ing Proposal, C. L. Fairley Construction Co., Inc., Kan-
                                                                 sas City, Kansas, Contract No. GS-06B-32140
                                                                 06/30/83
32
A30554/7 /F /830630 Preaward Evaluation of Pric-            A30668/4/F /830713 Letter Report - Lease Escala-
ing Proposal, H. Z. Smith Machinery Co., Solicitation       tion Review, Phoenix Building. Miami, Florida. Con-
No. YGE-l'v1B-75239-N-Ol-04-83 06/30/83                     tract No. GS-04B-15149 07/13/83
A30571/3/F/830630 Preaward Evaluation of Pro-               A30542/9/F /830713 Letter Report - Preaward
posal Submitted for Multiple Award Schedule Con-            Evaluation of Pricing Proposal. Datagraphix. Inc.,
tract, John Savoy and Son, Inc .. Montoursville,            Solicitation No. FGE-B9-75244-N-412-83 07/13/83
Pennsylvania, Solicitation No. YNPS-Sl-1116-N-1-28-         A30598/W /F /830713 Preaward Evaluation of Mul-
8306/30/83                                                  tiple Award Schedule Contract Proposal, National
A30584/9/F /830630 Preaward Evaluation of Pric-             Standards Association. Inc.. Contract No. GS-
ing Proposal, State Janitorial Services. Inc., Honolulu,    00S-63007 07/13/83
Hawaii. Solicitation No. RFP-OPR-9PPB-83-0269               A30402/2/F /830714 Letter Report - Postaward
06/30/83                                                    Audit of a Multiple Award Schedule Contract, Felco
A30428/W /F/830630 Preaward Evaluation of Lease             Athletic Wear Co., Inc., Contract No. GS-01S-07798
Escalation Proposal, Twelfth & L Streets Limited Part-      07/14/83
nership, 1020 11th Street Building, Lease No. GS-           A30354/W /F /830715 Claim for Increased Costs.
03B-5729 06/30/83                                           Glendale Joint Venture, Lease No. GS-03B-60053
A30575/W /F /830630 Preaward Evaluation of                  07/15/83
Bauxite Stockpile Purchase, Bauxite Alumina 'frading        A30490/4/F /830715 Letter Report - Lease Escala-
Co. of Jamaica, Ltd., Contract No. GS0083-DxxC-             tion Review. Social Security Administration Building,
0004 06/30/83                                               Birmingham. Alabama. Contract No. GS-04B-14592
A30629/4/F /830701 Letter Report - Lease Escala-            07/15/83
tion Review, St. Luke Professional Building, Jackson-       A30691/X/F /830715 Evaluation of Price Proposal.
ville, Florida, Contract No. GS-04B-15558 07/01/83          Norden Systems, Inc., Solicitation No. GSC-KESA-C-
A30630/4/F /830701 Letter Report - Lease Escala-            00024-N 07/15/83
tion Review, Title Building, Atlanta, Georgia, Contract     A30144/2/F /830718 Settlement Proposal for Con-
No. GS-04B-08304 07/01/83                                   tract Termination. Uniworld Group, Inc., Subcontrac-
A30566/61F /830706 Preaward Evaluation of Pric-             tor Under U.S. Small Business Administration Under
ing Proposal, Gilroy-Sims and Associates, St. Louis,        Prime Contract No. GS-03S-51852 07/18/83
Missouri 07/06/83                                           A30634/5/F /830722 Preaward Evaluation of Pric-
A30585/9/F /830707 Preaward Evaluation of Six               ing Proposal, Belson Manufacturing Co .. Inc .. Solicita-
Pricing Proposals, Open Office Products, Inc., Solicita-    tion No. 10PN-NES-0209 07/22/83
tion No. FNP-F5-1272-Nl1-19-82 07/07/83                     A30643/9/F /830722 Lease Escalation Proposal Cit-
A30620/5/F /830707 Letter Report - Accounting               inational-Buckeye Building Co.. Lease No. GS-
System Survey, Systems and Applied Sciences Corp.,          09B-60255 07/22/83
Contract No. GS-05S-12169 07/07/83                          A30625/5/F /830722 Letter Report - Review of
A30637 /8/F /830707 Preaward Evaluation of Pric-            Attachment No.1, Redmond Apartments Co., Lease
ing Proposal for Term Contract, Clifford S. Nakata &        No. GS-05B-13884 07/22/83
Associates, P. c., Project No. Z-CO-83-034 #2               A30636/8/F /830725 Preaward Evaluation of Pric-
07/07/83                                                    ing Proposal for Term Contract. Swenson-Smith-
A30638/81F /830707 Preaward Evaluation of Pric-             Crane. Project No. Z-UT-83-038 07/25/83
ing Proposal, Merrick & Company. Project No. Z-             A30594/7 /F /830726 Letter Report - Preaward
CO-83-034 #1 07/07/83                                       Evaluation of Pricing Proposal, Carter Chevrolet
A30453/8/F /830708 Preaward Evaluation of Pric-             Agency, Inc .• Okarche, Oklahoma. Contract No. GS-
ing Proposal. Hoover Berg Desmond. P. c.. Project 1-        00S-64425 07/26/83
CO-83-135 07/08/83                                          A30228/W /F /830727 Preaward Evaluation of Pric-
A30608/21F /830708 Preaward Evaluation of Pric-             ing Proposal, Eccles Security Agency. Inc., Contract
ing Proposal, Apex Investigations & Security Co .. Inc ..   No. GS-llC-30027 07/27/83
Subcontractor Under U.S. Small Business Administra-         A30666/4/F /830726 Preaward Pricing Proposal
tion. Solicitation No. 2PPB-RC-24.126 (NEG)                 Submitted by Citadel Enterprises, Inc. 07/26/83
07/08/83
                                                            A30555/51F /830727 Preaward Evaluation of Pric-
A30561/1/F /830711 Preaward Evaluation of Offer             ing Proposal, 3M Corp., Business Communication
Submitted by Raytheon Data Systems Co., Solicitation        Products Division, Solicitation No. 2FC-HEC-N-
No. GSC-KESA-C-00024-5-12-83 07/11/83                       A1358Q 07/27/83
A30601/6/F /830712 Preaward Evaluation of Pric-             A30556/5/F /830727 Preaward Evaluation of Pro-
ing Proposal. Glow Janitorial Service, St. Louis, Mis-      posed Overhead Rate, Ellis. Naeyaert, Genheimer
souri, Contract No. GS-06B-37608-01 07/12/83                Associates, Inc., Proposal No. GS-05BC-90470
A30667 /4/F /830713 Letter Report - Lease Escala-           07/27/83
tion Review, Pershing Point. Atlanta. Georgia. Contract
No. GS-04B-15262 07/13/83

                                                                                                                        33
     A30586/6/F/830727 Lease Escalation Proposal,               A30710/4/F/830808 Letter Report - Preaward
     A. D. Brovv'11 Building, St. Louis, Missouri, Lease No.    Review of Superb Maintenance Services, Inc., Pro-
     GS-06B-14033 07/27/83                                      posal to Provide Cleaning Services, EPA Piedmont-
     A30621/5/F /830727 Preaward Evaluation of Pric-            Courtland Building, Atlanta, Georgia, Contract No.
     ing ProposaL SoftwCH'e AG of North America, Inc.,         GS-04B-83633 08/08/83
     Solicitation No. GSC-KESA-C-00024-N-5-12-83               2C206800009/9/F /830808 Postaward Review of
     07/27/83                                                  Genrad, Inc., Vibration Analysis Division, Contract
     A30687 /6/F /830727 Preaward Evaluation of Pric-          No. GS-00S-86194 08/08/83
     ing Proposal, The Guard Service Co., Inc., Kansas City,    A30541/7 /F/830809 Preaward Evaluation of Baux-
     Missouri, Contract No. GS-06B-37613-01 07/27/83            ite Stockpile Purchase, Kaiser Aluminum and Chemi-
     A30345/7 /F /830729 Preaward Evaluation of Pric-           cal Corp., Subcontractor to Bauxite Alumina Trading
     ing Proposal, Monaco Enterprises, Inc., Solicitation      Co. of Jamaica, Ltd., Contract No. GS-0083-DxxC-
     No. 7PF -524081V5/7FC 07/28/83                            0004 08/09/83
     A30530/W /F /830728 Letter Report - Preaward              A30553/7 /F /830809 Preaward Evaluation of Pric-
     Evaluation of Pricing Proposal, Jowett, Inc., Contract    ing Proposal, Universal Machine Co., Inc., Solicitation
     No. GS-11B-32059 "Neg" 07/28/83                           No. YGE-YI-75235-N-1-6-83 08/09/83
     A30682/8/F/830728 Preaward Evaluation of Pric-            A30600/3/F/830809 Preaward Evaluation of Pric-
     ing ProposaL Air Logistics Corp., Solicitation No.        ing Proposal, Art Metal-U.S.A., Inc., Solicitation No.
     8FCG-S4-D341C 07/28/83                                    YNP-C1-1336-N-2-23-83 08/09/83
     A30709/W /F/830728 Evaluation of Pricing Pro-             A30658/7 /F /830810 Preaward Audit of Lease Esca-
     posal, Grunley-Walsh Construction Co., Contract No.       lation Proposal, Barbara S. Jarvis, Lessor, Lease No. GS-
     GS-11B-18334 07/28/83                                     07B-10482 08/10/83
     A30154/W/F/830729 Claim for Increased Costs,              A30722/4/F/830810 Letter Report - Lease Escala-
     Blake Construction Co., Inc., Contract No. GS-            tion Review, 60 8th Street Atlanta, Georgia, Contract
     03B-14598 07/29/83                                        No. GS-04B-20720 08/10/83
     A30311/W /F /830802 Claim for Increased Costs,            A30626/W /F/830812 Preaward Evaluation of Mul-
     Equitable Construction Company, Inc., Contract No.        tiple Award Schedule Contract Proposal, Computers,
     GS-03B-14830 08/02/83                                     etc., Solicitation No. GSC-KESA-C-00024-N-5-12-83
                                                               08/12/83
     A30631/5/F/830803 Preaward Evaluation of Price
     Proposal, Bell & Howell Co., Microfilm Products Divi-     A30646/10/F/830812 Letter Report - Preaward
     sion, Solicitation No. FGE-B9-75244-N-4-12-83             Evaluation of Pricing Proposal, Floating Point Sys-
     08/03/83                                                  tems, Inc., Beaverton, Oregon, Solicitation No. GSC-
                                                               KESA-C-00024-5-12-83 08/12/83
     A30652/2/F/830803 Preaward Evaluation of Pric-
     ing Proposal, C3, Inc., Reston, Virginia, Contract No.    A30673/7 /F/830812 Letter Report - Preaward Eval-
     GS-00K-8401S, Solicitation No. GSC-KESA-C-                uation of Pricing Proposal, Hartec Enterprises, Inc.,
     00024-5-12-83 08/03/83                                    Contract No. GS-11B-08249 08/12/83
     A30653/2/F /830803 TerminationSettlementPro-              A30602/W /F/830812 Claim for Increased Costs,
     posa!. Freedom Elevator Corp., Contract No. GS-           Atlantic Garages, Inc., Contract No. GS-3DPR-
     02B-24007 08/03/83                                        91010 08/12/83
     A305 70/3/F/830804 Lease Escalation Proposal,             A30284/1/F/830815 Postaward Audit of Interroyal
     Gateway Center Corp., Gateway Building, Lease No.         Corp., Plainfield, Connecticut. Contract No. GS-
     GS-03B-06148 08/04/83                                     00S-38108 08/15/83
     A30727 /X/F /830804 Evaluation of Pricing Pro-            A30651/W /F/830815 Preaward Evaluation of Pric-
     posal, Brush Wellman, Inc., Beryllium Products            ing Proposal, Bruce's Janitorial Services, Inc., Contract
     Group, MetallMinerals Division, Solicitation No. GS-      No. GS-llC-30018 08/15/83
     0083-DXXC-0006 08/04/83                                   A30574/W/F/830816 Preaward Evaluation of Mul-
     A30633/6/F /830805 Preaward Evaluation of Pric-           tiple Award Schedule Contract Proposal, Honeywell
     ing Proposal, King Radio Corp., Olathe, Kansas, Solic-    Information Systems, Inc., Solicitation No. GSC-
     itation No. GSC-KESCR-00023-N-5-26-83 08/05/83            KESA-C-00024-N-5-12-83 08/16/83
     A30562/1iF/830808 Letter Report - Preaward Audit          A30627 /9/F/830816 Preaward Evaluation of Pric-
     of Digital Equipment Corp., Solicitation No. GSC-         ing Proposal, Applied Technology Associates, Inc.,
     KESA-C-00024-N-5-12-83 08/08/83                           Solicitation No. 9K1-022-N-83 08/16/83
     A30567 /2/F/830808 Preaward Evaluation of Pric-           A30623/4/F/830816 Preaward Evaluation of Pric-
     ing Proposal, Adler-Royal Business Machines, Inc.,        ing Proposal, Lanier Business Products, Inc., Solicita-
     Solicitation No. YGE-B8-75247-N 08/08/83                  tion No. GSC-KESA-C-00024-N-5-12-83 08/16/83
     A30595/7 /F/830808 Preaward Evaluation of Pric-           A30697 /6/F/830816 Preaward Evaluation of Pric-
     ing Proposal, Carter Chevrolet Agency, Inc., Solicita-    ing Proposal, Peckham, Guyton, Albers, and Viets,
     tionNo. YAPM-V2-05560-N 08/08/83                          Inc., St. Louis, Missouri 08/16/83
     A30639/8/F /830808 Preaward Audit of Multiple             A30769/X/F /830816 Preaward Evaluation of Pric-
     Award Contract, Renewal Information Handling Serv-        ing Proposal, Finishing Enterprises, Inc., Solicitation
     ices, Contract No. GS-00S-41428 08/08/83                  No. FGA-Z-X3518-N 08/16/83
34
A30770/X/F/830816 Preaward Evaluation of Pric-              A30723/6/F /830831 Preaward Evaluation of Pric-
ing Proposal. Watkins-Johnson Co., Solicitation No.         ing Proposal, Hamilton Industries, Inc., Two Rivers,
GSC-KESCR-00023-N-5-26-83 08/16/83                          Wisconsin, Solicitation No. YGE-YY-75241-N-11-30-82
A30568/2/F/830817 Valu~            Change      Proposal,    08/31/83
Beeche Inc., Subcontractor to Arnell Construction           A30683/1/F/830831 Preaward Proposal Evaluation,
Corp., Under Prime Contract No. GS-02B-23112                Wang Laboratories, Inc., Lowell, Massachusetts, Solic-
08/17/83                                                    itation No. GSGKESA-G00024-N-5-12-82 08/31/83
A30640/2/F/830817 Preaward Evaluation of Pric-              A30761/6/F/830902 Preaward Evaluation of Pric-
ing Proposal, Olympia USA, Inc., Solicitation No.           ing Proposal, Breckco Construction Co., Inc., Wichita,
YGE-B8-75247-N 08/17/83                                     Kansas, Contract No. GS-06B-32240 09/02/83
A30679/5/F/830818 Preaward Evaluation of Pro-               A30648/51F/830906 Lease Escalation Proposal,
posed Unit Prices, Ebenreiter Woodworking Co.               Detroit Associates Limited, Partnership, Lease No. GS-
(EBCO) , Solicitation No. YNPS-S1-1116-N-1-28-83            05BR-9585 09/06/83
(Renewal #1) 08/18/83                                       A30717171F/830906 Preaward Evaluation of Pric-
A30603/W /F/830819 Preaward Evaluation of Lease             ing Proposal, K&S Chemical Manufacturing Co., Inc.,
Escalation Proposal, 2025 M Associates (Joint Venture),     Solicitation No. 7PR-W-52434IE5/7FC 09/06/83
Lease No. GS-03B-90012 08/19/83                             A30729/5/F/830907 Change Order Proposal and
A30780/x1F/830819 Evaluation of Initial Pricing             Claim for Increased Costs, D. L. Woods Construction,
Proposal, Booz, Allen & Hamilton, Inc., RFP No.             Inc., Contract No. GS-05BC-81897 09/07/83
PPB-83-014 08/19/83                                         A30825/X/F /830907 Evaluation of Initial Pricing
A30696/W IF /830822 Preaward Evaluation of Cost             Proposal, ARGOSystems, Inc., Solicitation No. FGS-
and Pricing Data, Government Marketing Services,            0-36405-N-12-2-B2 09/07/83
Inc.,    Solicitation No.       YGE-YI-75235-N-1-6-83       A30714/41F/830909 Preaward Audit of B(a) Pricing
08/22/83                                                    Proposal, Communications International, Inc., Nor-
2C206620305/51F/830822 Postaward Audit of                   cross, Georgia, Solicitation No. KET-JF-83-06
Multiple Award Contract, Bell & Howell Co., Audio-          09/09/83
Visual Products Division, Contract No. GS-03S-81002         A307 44/8/F /830909 Preaward Audit of Proposal
08/22/83                                                    Submitted by Gallegos Research Group in Response to
A30583/9/F/830823 Preaward Evaluation of Pric-              Solicitation No. BFGOH2-DS050 09/09/83
ing Proposal, Victor United, Inc., Solicitation No. YGE-    A30736/W IF /830912 Letter Report - Termination
YI-75235-N-1-6-83 08/23/83                                  Claim of CPM Construction Corp., Contract No.
A30093/10/F/830824 Postaward Audit of Rusco                 GS-11B-27041 (NEG) 09/12183
Electronic Systems, Contract No. GS-07S-05832               A30305/21F/830913 Letter Report - Claim for Con-
08/24/83                                                    struction Changes, PJR Construction Corp., Contract
A30092/10/F/830825 Postaward Audit of Amer-                 No. GS-02B-74005, Proposal No. 14-A 09/13/83
ican Pharmaseal, Contract No. GS-OOS-86729                  A30721/4/F/830913 Letter Report - Preaward
08/25/83                                                    Review of Hunsinger-Sonenberg Management Com-
A30672/71F/830825 Preaward Evaluation of Lease              pany's Proposal to Alter Space at the FSS Depot,
Alterations, Berne Associates, Houston, Texas, Lease        Duluth, Georgia 09/13/83
No. GS-07B-11667 08/25/83                                   A30772/4/F/830913 Letter Report - Preaward
A30796/X1F/830825 Evaluation of Time and Mate-              Evaluation of Change Order Pricing Proposal, Ferebee,
rial Proposals, PRC/Government Information Sys-             Walters and Associates, Contract No. GS-04B-80729
tems, RFP No. PPB-83-014 08/25/83                           (NEG) 09/13/83
A30670/4/F/830826 Preaward Evaluation of Cost               A30807 /X IF /830913 Evaluation of Initial Price Pro-
Proposed by Colbar, Inc., for Janitorial Services at the    posal, Systems Architects, Inc., Solicitation No. RFP
Federal Building, Oak Ridge, Tennessee, Contract No.        PPB-B3-014 09/13/83
GS-04B-83636 08/26/83                                       A30837/4/F/830914 Letter Report - Preaward
 A30803/X1F/830826 Evaluation of Pricing Pro-               Review of Stevens & Wilkinson Architects Engineers
posal, Racal Communications, Inc., Solicitation No.         Planners, Inc., Proposal to Perform Construction
GSC-KESCR-0023-N-5-26-83 08/26/83                           Inspection Services at the Federal Building Parking
 A30773/31F/830830 Preaward Evaluation of Pric-             Facility in Savannah, Georgia, Contract No. GS-
 ing Proposal, GRIM Corp., Solicitation No. GSG             04B-B0722 (NEG) 09/14/83
 KESCR-00023-N-5-26-83 08/30/83                             A30685/9/F /830915 Letter Report - Preaward
 A30778/7 /F /830830 Letter Report - Preaward               Evaluation of Pricing Proposal, Rolm Corp., Solicita-
 Review of Contractor's Qualifications as a "Regular        tion No. GSC-KESA-G00024-5-12-83 09/15/83
 Dealer," H. Z. Smith Machinery Co., Tyler, Texas, Solic-   A30811/1/F/830915 Evaluation of Pricing Proposal,
 itation No. YGE-MB-75239-N-01-04-83 (l8/30/83              D. Baugh and Associates 09/15/83
 A30684/3/F /830831 Preaward Evaluation of Pric-            A30454/W /F /830916 Preaward Evaluation of
 ing Proposal, Insulgard Corp., Solicitation No. BOIFS-     Change Order Pricing Proposal, Grunley-Walsh Con-
 L-00259-1 08/31/83                                         struction Co., Inc., Contract No. GS-llB-18334, File
                                                            e.O. No. 18 09/16/83                                     35
     A30455/W /F/830916 Preaward Evaluation of                     A30708/W /F /830922 Preaward Evaluation of Pric-
     Change Order Pricing Proposal, Grunley-Walsh Con-             ing Proposal. John Callaham's Refuse Hauling, Inc.,
     struction Co., Inc., Contract No. GS-11B-18334, Change        Contract No. GS-llC-30128 09/22/83
     Order No. 15PDL 09/16/83                                      A30738/2/F/830922 Preaward Evaluation of Pric-
     A30690/9/F/830916 Preaward Evaluation of Pric-                ing Proposal, Sony Corp. of America, Park Ridge,
     ing Proposal, Magnavox Advanced Products and Sys-             New Jersey, Solicitation No. GSC-KESA-C-00024
     tems Co., Marine and Survey Systems Division,                 09/22/83
     Solicitation No. GSC-KESCR-00023-N-5-26-83                    A30760/1/F/830922 Preaward Audit of Pitney
     09/16/83                                                      Bowes-Facsimile Systems, Solicitation No. GSC-
     A30724/6/F /830916 Preaward Evaluation of Pric-               KESCV-00024-N-6-28-83 09/22/83
     ing Proposal, NCT Services, Inc., Kansas City, Mis-           A30645/10/F/830923 Preaward Evaluation of
     souri, Contract No. GS-06B-37622-01 09/16/83                  Design Lab, Inc., U.S. Courthouse and Post Office,
     A30743/9/F/830916 Letter Report - Preaward                    Anchorage, Alaska, Project No. RAK 77616 09/23/83
     Evaluation of Pricing Proposal, Loral Terracom, A             A30678/5/F/830923 Preaward Evaluation of Pro-
     Division of Conic Corp., Solicitation No. GSC-KESCR-          posed Unit Prices, Bell & Howell Co., Microfilm Prod-
     00023-N-5-26-83 09/16/83                                      ucts Division. Solicitation No. FGE-B9-75244-
     A30759/3/F /830916 Preaward Evaluation of Pric-               N-4-12-83 09/23/83
     ing Proposal, Eastern Services, Inc., Solicitation No.        A30794/9/F/830923 Letter Report - Lease Escala-
     GS-03-83-R-0037 09/16/83                                      tion Proposal, California State Automobile Associa-
     A30559/5/F/830919 Lease Escalation Proposal,                  tion, Lease No. GS-09B-75262 09/23/83
     Detroit and Canada 'funnel Corp., Lease No. GS-               A30797/2/F/830923 Preaward Evaluation of Pric-
     05B-12863 09/19/83                                            ing Proposal, The George Basch Co., Inc., Solicitation
     A30775/2/F/830919 Letter Report - Preaward                    No. RFP-9FCO-OKW-N-A0749/83 09/23/83
     Evaluation of Pricing Proposal for AlE Services, Men-         A30798/3/F/830923 Pre award Evaluation of Pro-
     del-Mesick-Cohen-Waite, Architects, Contract No.              posal Submitted for Multiple Award Schedule Con-
     GS-I1B-39008 09/19/83                                         tract, John Savoy and Son, Inc., Montoursville, Penn-
     A30611/21F/830919 Letter Report - Preaward Eval-              sylvania, Solicitation No. YNPS-Sl-1116-N-1-28-83
     uation of Pricing Proposal, Savin Corp., Solicitation         09/23/83
     No. YGE-M8-75238-N-2-24-83 09/19/83                           A30809/4/F/830923 Preaward Evaluation of Pric-
     A30776/81F/830919 Preaward Evaluation of Pric-                ing Proposal for Design Services Submitted by Kidd!
     ing Proposal, Clifford S. Nakata & Associates, P. C., Proj-   Plosser/Sprague, Architects, Inc .. U.S. Courthouse,
     ect No. I-CO-83-135 09/19/83                                  Birmingham, Alabama, Contract No. GS-04B-83253
     A30788/9/F/830919 Letter Report - Preaward                    09/23/83
     Evaluation of Change Requests 2 and 5, Feinstein Con-         A30689/W /F/830926 Preaward Evaluation of AlE
     struction. Inc., and Neil D. Feinstein, Contractor, J. v.,    Pricing Proposal, MMM Design Group, Contract No.
     Contract No. GS-09B-20650-SF 09/19/83                         GS-00B-02800 09/26/83
     2C110250007( a)/7 /F /830920 Postaward Review,                A30731/1/F/830926 Preaward Evaluation of Bur-
     Abbott Laboratories, Contract No. GS-00S-49021                roughs Corp., Solicitation No. GSC-KESCV-00024-
     09/20/83                                                      N-6-28-83 09/26/83
     A30564/91F/830920 Lease Escalation Claim, State               A30800/3/F/830926 Preaward Evaluation of Sup-
     Compensation Insurance Fund, Lease No. GS-09B-                plemental AlE Proposal, Allen R. Carney. A.LA., Ar-
     60764 09/20/83                                                chitect and Land Planner 09/26/83
     A30616/W IF /830920 Preaward Evaluation of Lease              2H204767707(a)/71F/830927 Price Reduction Re-
     Escalation Proposal, 13th & E Streets Associates, Joint       view, Abbott Laboratories, Contract No. V797P-
     Venture, Warner Building, Lease No. GS-03B-6274               5577(f) 09/27/83
     09/20/83                                                      2H204767707(b)17 /F/830927 Defective Pricing
     A30764/7/F/830920 Preaward Evaluation of Pric-                Review, Abbott Laboratories , Contract No. V797P-
     ing Proposal, Garland and Hilles, AIA, Architects,             5281(g) 09/27/83
     Contract No. GS-07B-30918 (Amendment) 09/20/83                A30703/7/F/830927 Preaward Evaluation of Cost
     A30707 /W /F/830921 Preaward Evaluation of Pric-              Data, A. Brandt Co., Inc., Solicitation No. 1-YNPS-
     ing Proposal, John Callaham's Refuse Hauling, Inc.,           Sl-1116-N-1-28-83 09/27/83
     Contract No. GS-llC-30167 09/21/83                             A30654/2/F/830927 Preaward Evaluation of Pric-
     A30730/5/F /830921 Letter Report - Preaward                    ing Proposal, Royal Business Machines, Inc., Solicita-
     Evaluation Alterations Proposal, Michigan Avenue               tion No. YGE-M8-75238-N-2-24-83 09/28/83
     Management, Inc., Lease No. GS-05B-12005                       A30741/7/F/830927 PreawardEvaluationofPric-
     09/21/83                                                       ing Proposal, Monaco Enterprises, Inc., Solicitation
     A3085 7 /X/F /830921 Evaluation of Pricing Pro-                No. 7CF-52408N5/7FC 09/27/83
     posal, BRC Associates, Inc., RFP No. PPB-83-014                A30681/8/F/830928 PreawardEvaluationofPric-
     09/21/83                                                       ing Proposal for Fixed-Price Contract, Davis Partner-
                                                                    ship, P. c., Project No. I-CO-83-512 09/28/83
36
A30817/3/F/830928 PreawardEvaluationofSup-                 A30420/9/F/830419 Letter Report - Controls Over
plemental AlE Proposal, The Cooper-Lecky Partner-          Receipts from Real Property Sales, Region 9
ship 09/28/83                                              04/19/83
A30853/W /F/830928 LetterReport-Preaward                   A30429/5/F/830419 Letter Report- ReviewofSuc-
Evaluation of AlE Proposal. Vosbeck-Vosbeck-Ken-           ceeding Lease, Mid Continental Plaza, Chicago, Illi-
drick-Redinger Partnership, Modification No.1 to           nois, Lease No. GS-05B-13969 04/19/83
Contract GS-03B-89010 09/28/83                             3V203810707 /7/F/830420 Letter Report - Review
A30066/5/F/830930 Postaward Audit of Multiple              of Comprehensive Travel Management Centers, Region
Award Contract, Bell & Howell Co., Microfilm Prod-         7 04/20/83
ucts Division, Contract No. GS-00S-23509 09/30/83          30208821010/10/F/830421 Compliance with Direct
A30720/7/F/830930 Letter Report - Vehicle Rental           Delivery and Maintenance of Stock Replenishment
Contracts, Ajax Rent-A-Car, Houston, Texas, Contract       Report Regulations is Required 04/21/83
Nos. GS-00S-64279 and GS-00S-64280 09/30/83                A30030/WIF/830421 Inspection of Leases for Space
                                                           in the Matomic Building, Washington, D. c., Lease No.
                                                           GS-l1B-l0091 04/21/83
Report Register                                            A30131/9/F/830421 Letter Report - Controls Over
Internal Audits                                            Project Phasing and Scheduling of Weather-Sensitive
                                                           Projects 04/21/83
A30374/5/F/830401 Letter Report - Observation of
the Physical Inventory of Self-Service Store No. 46,       A30410/91F/830421 Letter Report - Inspection of
Chicago, illinois 04/01/83                                 Project RCA 20531, Water Chiller Replacement, Federal
                                                           Building, 800 Truxton Avenue, Bakersfield, California,
T-FSS/TPUS-F -01-82 Inspection of Machinery Wip-           Contract No. GS-09B-20531-SF 04/21/83
ing Towels, Contract No. GS-09S-41355 04/04/83
                                                           A30463/41F/830425 Letter Report - Pending Lease
4D205800707 /7 /F/830406 Internal Controls Need            Award, Title Building, Atlanta, Georgia, Lease No. GS-
To Be Strengthened at the Houston Field Office, Region     04B-23119 04/25/83
7 04/06/83
                                                           3U207150303/3/F/830426 Mismanagement of
A30420/4/F/830407 Letter Report-Review of Con-             Motor Pool Operations Has Resulted in Questionable
trols Over Receipts from Real Property Sales               Procurement and Contract Administration Procedures
04/07/83                                                   at the Philadelphia Interagency Motor Pool 04/26/83
A30419/5/F/830408 Letter Report - Preaward                 A30420/10/F/830427 Letter Report - Controls
Review of Lease Extension, One North Dearborn, Chi-        Over Receipts from Real Property Sales 04/27/83
cago, illinois, Lease No. GS-05B-R-l0736 04/08/83
                                                           A30476/5/F/830427 Letter Report - Preaward
NC-PBS-B-26-82 Inspection of Plaza Waterproofing           Review of Lease Extension, 601-777-801 Rockwell Ave-
and Cooling Tower Slab Repairs, Everett M. Dirksen         nue, Cleveland, Ohio, Lease No. GS-05B-
Building, Chicago, illinois 04/08/83                       13059 04/27/83
A30418/3/F/830411 Letter Report - Proposed                 6G-20724-00-21 Letter Report - Management
Award of Lease, Baltimore-Washington Science and           Review of GSA's Implementation of OMB Circular
Industry Center, 800 Elkridge Landing Road, Linthi-        A-76 04/28/83
cum, Maryland, Lease No. GS-03B-30014 04/11/83
                                                           6G-20550-00-21 Management Report On Investiga-
A30378/5/F/830413 Letter Report - Observation of           tions and Security Responsibility within GSA
the Physical Inventory of Self-Service Store No. 44, Ft.   04/28/83
Snelling, Minnesota 04/13/83
                                                           4D-20883-10-10 Letter Report - Accountability
WPBSC0282/9/F/830413 Inspection Review of                  Over Operating Equipment at the Portland, Oregon,
Project RCA 20418, Exterior Waterproofing and Seal-        Buildings Management Field Office is Inadequate,
ing of the Federal Office BuildinglPost Office, 11000      Region 10 04/29/83
Wilshire Boulevard, Los Angeles, California
                                                           A30013/51F/830429 Inspection of Procurement and
04/13/83
                                                           Contract Administration of Sand Bags, Region
A30435/W /F/83 0414 Letter Report - Proposed               5 04/29/83
Award of Lease, 5205 Leesburg Pike, Falls Church, Vir-
 ginia, Lease No. GS-l1B-30016 04/14/83                    A30470/1/F/830429 Letter Report - Proposed
                                                           Lease Extension of 99 High Street, Boston, Mas-
A30450/W /F/830418 Letter Report - Failure to              sachusetts, Lease No. GS-01B(PRA)-02890 (NEG)
Request Preaward Lease Review, 1325 G St., N.W.,           04/29/83
Washington, D. c., Lease No. GS-l1B-30007 04/18/83         PBSC0382/W /F/830429 Inspection of Contract No.
A30386/5/F/830418 Letter Report - Observation of           GS-03B-88963, Construction of Smithsonian Museum
the Physical Inventory of Self-Service Store No. 45,       Support Center, Suitland, Maryland 04/29/83
Jeffersonville, Indiana 04/18/83                           PBSC0982/WIF/830429 Inspection of Lease Altera-
PBSC1082/W /F /830418 Inspection of the Lease/             tion Act No. 21724695, Alterations to First and Second
Alteration Project FS 51-81-1198, Alterations to the       Floors, Plaza West Building, Rosslyn, Virginia, Lease
Sixth Floor, Transpoint Building, Washington, D. C.,       No. GS-03B-l0011 04/29/83
Lease No. GS-03B-05873 04/18/83
                                                                                                                    37
     A30468/W /F /830502 Letter Report - Proposed              A30478/9/F/830524 Letter Report - Preaward
     Award of Lease. 12725 Twinbrook Parkway, Rockville.       Audit of a Succeeding Lease. Two Embarcadero Cen-
     Maryland. Lease No. GS-llB-30021 05/02/83                 ter, San Francisco, California OS/24/83
     A30330/4/F /830504 LeaseAdministrationforthe              A30481/9iF/830524 Letter Report - Preaward
     One Government Plaza Building, Gulfport, Missis-          Audit of a Succeeding Lease, Two Embarcadero Cen-
     sippi 05/04/83                                            ter, San Francisco, California 05f24/83
     A3006817 /F/830505 Letter Report - Review                 A30483/9/F /830524 Letter Report - Preaward
     of Maintenance Management Program. Buildings              Audit of a Succeeding Lease, One Embarcadero Cen-
     Management Division and Field Office Operations           ter, San Francisco, California OS/24/83
     05/05/83                                                  A30513/9iF/830524 Letter Report - Preaward
     A30057/5/F/830506 Letter Report - Review of               Audit of a Proposed Lease Extension, 3225 North Cen-
     Selected Financial Operations of the Construction         tral Avenue, Phoenix, Arizona OS/24/83
     Services Fund 05/06/83                                    5D206150202/2iF/830524 Review of the General
     A30411/9/F/830506 Letter Report - Inspection of           Supply Fund Administrative Equipment, Region 2
     Project RAZ 20566, Cooling Tower Replacement.             OS/24/83
     Federal Building and US. Courthouse. 230 North First      4D10451XXll/W iF/830525 Consolidated Report
     Avenue, Phoenix, Arizona, Contract No. GS-09B-            on Improving the Pricing of Non-Recurring Reim-
     20566-SF 05/06/83                                         bursable Work Authorizations OS/25/83
     A30422/5/F/830506 Letter Report - Observation             A30187 /4 iF/830526 Energy Inspection of Federal
     of the Physical Inventory of Self-Service Store No. 41,   Building, 275 Peachtree Street, Atlanta, Georgia
     Cleveland. Ohio 05/06/83                                  OS/26/83
     A30405/5iF/830506 Letter Report - Observation             A30420/7 iF/830527 Letter Report - Review of
     of the Physical Inventory of Self-Service Store No. 42,   Controls Over Receipts from Real Property Sales
     Cincinnati, Ohio 05/06/83                                 OS/27/83
     5F /10463-00-28 Stockpile Inventory and Billing           A30569/WIF/830531 Letter Report - Proposed
     Systems (Phase II) 05/10/83                               Award of Lease, 1201-1301 South Fern Street,
     5Z208611111/W /F /830505 Administrative Prac-             Arlington, Virginia, Lease No. GS-llB-20085
     tices and Procedures of the United States Commission      05/31/83
     on Civil Rights 05/10/83                                  A30577 /1/F/830531 Letter Report - Proposed
     A30475/1/F/830511 Letter Report - Proposed Fed-           Award of Succeeding Lease, 33 North Avenue, Bur-
     eral Office Building, Boston, Massachusetts 05/11/83      lington, Massachusetts, Lease Contract No. GS-
     A30487/W/F/830511 Letter Report - Proposed                01B(PEL)-03387 05/31/83
     Award of Lease, 1201 E Street, N.W., Washington, D.c.,    A30464/7 /F/830602 Letter Report - Review of
     Lease No. GS-I1B-30008 05/11/83                           Agreements Between GSA and the University of Texas
     A30473/1/F/830512 Letter Report - Proposed                Concerning Ownership, Operation, Maintenance and
     Award of Lease Extension, 100 Summer Street, Boston,      Protection of the LBJ Library 06/02/83
     Massachusetts, Lease No. GS-01B(PRA)-02789                A30194/4iF/830602 Inspection of Renovation of
      (NEG) 05/12/83                                           Warehouses, Fort Worth, Texas, Contract No. GS-
     A3043 7 /5/F/830513 Letter Report - Observation of        07B-31039 06/02/83
     the Physical Inventory of Self-Service Store No. 43,      A30028/1/F/830607 Internal Control Weaknesses
     Detroit, Michigan 05/13/83                                Hamper Inventory Management Operations, Region 1
     A30053iF/5/830516 Letter Report - Inspection of           06/07/83
     Federal Supply Schedules for Woodworking and Met-         A30010/5iF/830608 Regional Appraisal Staff, Re-
     alworking Machinery and Equipment 05/16/83                gion 5 06/08/83
     A30531/W/F/830516 Letter Report - Proposed                5D201681111/W/F/830615 Letter Report - Hazard-
     Award of Lease, Crystal Gateway Building No.2, Lease      ous Duty Payments 06/15/83
      No. GS-I1B-30022 05/16/83                                A30135/4/F/830616 Inspection of Roof Repairs,
     9B120525111/WiF/830516 Consolidated Report on             U.S. Border Station and US. Post Office-Courthouse,
      Significant Improvements Are Needed in the Procure-      Laredo, Texas 06/16/83
     ment and Administration of Construction Contract          A30524/4/F/830616 Letter Report - Preaward
     Change Orders 05/16/83                                    Lease Review, Aronov Building, Montgomery, Ala-
     A30502/W /F/830517 Letter Report - Proposed               bama, Lease No. GS-04B-22431 06/16/83
     Award of Lease, Woodmont Building Complex, Lease          A30423/W /F/830617 Letter Report - Inspection of
      No. GS-I1B-30023 05/17/83                                Lease Alteration Project Al739176; Alterations to
     A30057 /6/F/830518 Letter Report - Selected Fi-           Room G3C24, AMC Building, Alexandria, Virginia,
      nancial Operations of the Construction Services Fund,    Lease No. GS-03B-05854 06/17/83
     Region 6 05/18/83                                         A30624/3/F/830617 Letter Report - Preaward
      SPBSL0182/4iF/830519 Lease Inspection /Lease             Lease Review, 1771 Tomlinson Road, Philadelphia,
     Consolidation, First National Building, El Paso, Texas,   Pennsylvania 06/17/83
      Lease Nos. GS-07B-11397, GS-07B-11466 and GS-
38    07B-11477 05/19/83
5X202550011/W /F/830617 Improvements are Need-             A30587/1/F/830701 Letter Report - Preaward
ed in the Management and Control of the GSA                Lease Reviews, One Gateway Center, Newton, Mas-
Employees Association 06/17/83                             sachusetts, SLA #7, GS-01B(PRA)-02938 Neg. (Ext.),
A30614/W /F/830620 L13tter Report - Preaward               GS-01B(PEL)-03388 Neg. (Succeeding Lease)
Lease Review, 71913th Street, N.W. Washington, D.C.,       07/01/83
Lease No. GS-11B-30027 06/20/83                            A30057/4/F/830701 Letter Report - Review of
A30618/W /F/830620 Letter Report - Preaward                Selected Financial Operations of the Construction
Lease Review, 1100 Vermont Avenue, N. w., Washington,      Services Fund 07/01/83
D.c., Lease No. GS-11B-30019 06/20/83                      A30065/5/F/830701 Letter Report - Contract
                                                           Review and Inspection of Work-in-Place Defense Map-
A30467/5/F/830622 Letter Report - Inspection
                                                           ping Agency Remodeling, Federal Center, Bldg. #11,
Review of Contract Administration and Work-in-Place
                                                           Kansas City, Missouri, Contract GS-06B-16310
Alterations for IRS Automated Collection System            07/01/83
(ACS), Federal Building, Indianapolis, Indiana, Con-
tract No. GS-05BC-82634 06/22/83                           A30661/0/F/830701 Review of Hotline Allegations
                                                           Regarding Conferences held in Ft. Worth, Texas, Dur-
SFSS1382/4/F/830622 Inspection of Administra-
                                                           ing May 23-27, 1983 07/01/83
tive Service Division Procurement Practices, Region
4 06/22/83                                                 A30050/5/F/830706 Inspection of Federal Supply
                                                           Schedule 511A 07/06/83
A30572/5/F/830623 Letter Report - Inspection of
Corrugated Boxes as a Result of GAO Case Summary           A30656/3/F /830706 Letter Report - Proposed
29453 06/23/83                                             Award of Lease, Airport Plaza, 793 Elkridge Landing
                                                           Road, Linthicum, Maryland, Lease No. GS-03B-
WPBSC1882/9/F /830624 Inspection of Region 9
                                                           30013 07/06/83
Repair and Alteration (R&A) Program for the Years FY
1983 through FY 1987 06/24/83                              A30675/9/F/830713 Letter Report - Preaward
                                                           Lease Review, 1221 Broadway, Oakland, California,
A30108/9/F/830624 Inspection of Fire Station Ex-           Solicitation No. GS-09B-82836 07/13/83
tension, Denver Federal Center, Denver, Colo-
rado 06/24/83                                              A30499/2/F/830714 Checks Held by Regional
                                                           Counsel, Region 2 07/14/83
5D207081111/W/F/830627 Construction Services
Fund - Increased Management Attention is                   A30190/2/F/830715 Vacant Space at 26 Federal
Needed 06/27/83                                            Plaza, New York, New York, Region 2 07/15/83
A30565/T/F/830627 Letter Inspection Report-                A30550/W/F/830715 Letter Report - Lease Inspec-
FSS May Have Defective Sand Bags in Their Supply           tion, Logan Building, 111118th Street, N.W., Washing-
System 06/27/83                                            ton, D. C., Lease No. GS-l1B-l0075 07/15/83
A30205/2/F/830628 Review of Cafeteria Equip-               A30665/9/F /830720 Letter Report - Preaward
mentiFurniture, Region 2 06/28/83                          Audit of a Lease Extension and Renewal, 525 Market
                                                           St., San Francisco, California 07/20/83
A30441/2/F/830628 Letter Report - Observation of
the Physical Inventory of the Self-Service Store No. 32,   A30111/Z/F /830721 FSS-28 System Development
New York, New York 06/28/83                                Project 07/21/83
4K·l0853·00·22 Letter Report - Review of ADP               3C207651111/WIF/830721 Letter Report - Excess
Fund Billings and Collections 06/30/83                     Personal Property Program Within the National Cap-
                                                           ital Region 07/21/83
5D206160606/6/F/830630 Region 6 Needs Greater
Accountability and Control Over Administrative             A30254/2/F/830722 Proposed IRS Lease, Hemp-
Equipment 06/30/83                                         stead, New York, Lease No. GS-02B-22137 07/22/83
5D207720606/6/F/830630 Revisions to the GSA                A30699/W/F/830722 Letter Report - Preaward
Payroll Process Could Result in Efficiencies and Cost      Lease Review, 2025 M Street, N.W. Washington, D.c.,
Savings 06/30/83                                           Lease No. GS-11B-30017 07/22/83
A30588/W /F/830630 Letter Report - Inspection of           A30534/1/F/830726 Letter Report - Review of the
Conversion of the Third Floor Courtrooms and Judges'       Implementation of the Jobs Bill, Public Law 98-8
Suites; Garmatz Federal Building, Baltimore ,Mary-         07/26/83
land; Contract No. GS-03B-88483 06/30/83                   A30183/W/F/830727 Inspection of Leases for Space
A30271/6/F/830630 Letter Report - Review of the            in the New Mclaughlin Building, Washington, D.C.,
Material Returns Program, Office of Federal Supply         Lease Nos. GS-03B-5947, GS-03B-70029, GS-11B-
and Services 06/30/83                                      00045, and GS-11B-10067 07/27/83
A30497/6/F/830630 The Physical Inventory Count             A30285/7/F/830727 Letter Report - Evaluation of
of the Omaha Self-Service Store was Performed in           Contract Management Division. Region 7 07/27/83
Accordance with Prescribed Procedures 06/30/83             A30701/R/F /830727 Letter Report-Review of
PBSC0582/W/F/830630 Inspection of Window                   Social Security Space Needs, Wilkes-Barre, Pem'lsyl-
Wall Contract, SSA Metro West Building, Baltimore,         vania 07/27/83
Maryland, Contract No. GS-03B-78054 06/30/83               A30340/T/F /830727 Letter Report-Proposed
                                                           Purchase of the GSA Supply Depot, Duluth, Georgia
                                                           07/27/83                                                39
     5D206250202/2/F/830729 Review of Regional Pay-           A30543/5/F /830824 Letter Report - Inspection of
     roll Operations. Region 2 07/29/83                       Contract Administration and Work-in-Place. New First
     A30163/5/F /830729 Letter Report - Inspection of         Floor Court Facility and Improvements. Federal Build-
     Contract Administration and Work-in-Place, Miscel-       ing and u.s. Courthouse. Columbus. Ohio 08/24/83
     laneous Improvements. Federal Building, Indi-            A30323/9/F /830825 Operations at the Federal Ar-
     anapolis, Indiana 07/29/83                               chives and Records Center, San Bruno, California.
     A30015/9/F /830729 C:;ontract Management, Office         Region 9 08/25/83
     of Federal Supply and Services, Region 9 07/29/83        A30704/9/F/830826 Letter Report-Inventory Pro-
     A3057817/F/830801 Letter Report-Audit of House-          cedures, Stockton Supply Distribution Facility
     hold and Quarters Furniture Procurement 08/01/83         08/26/83
     A30713/W /F /830801 Letter Report - Preaward             4D209360909/9/F /830829 Administration of
     Lease Review. Westwood Complex. 5333 & 5331 West-        Guard Service Contracts, Office of Public Buildings
     bard Avenue. Bethesda, Maryland. Lease No.               and Real Property, Region 9 08/29/83
     GS-llB-30025 08/01/83                                    5F -12102-00-28 Letter Report - Computer Re-
     A30591/W /F /830803 Letter Report - Review of the        sources Utilization, RAMUS-II 08/30/83
     Executive Dining Room Located in the Old Executive       A30324/4/F/830830 Motor Equipment Division's
     Office Building 08/03/83                                 Regional Maintenance Control Center 08/30/83
     W-FSS-03-82 Inspection Review of Two Term Con-           A30535/5/F /830830 Letter Report - Inspection of
     tracts Issued to Chemray Coatings Corp. for Qualified    Contract Administration and Work-in-Place Initial
     Products List Specification TT-E-489 Paint 08/03/83      Space Alterations, USDA, FSQS, 4300 Goodfellow
     4E209051111/W /F /830803          Letter Report          Boulevard. St. Louis. Missouri 08/30/83
      Inadequate Administration of the Material Handling      SPBSC2082/4/F/830831 Letter Report-Inspection
     System Contract for the Metro West Building 08/          of New Construction, Post Office and Courthouse,
     03/83                                                    Charleston, South Carolina, AlE Contract No. GS-
     A30676 /7 /F /830804 Letter Report - Proposed            04B-82402 (NEG) 08/31/83
     Award of Lease. 8625 King George Drive (Regal Gar-       A30224/6/F /830831 Improved Region 6 ADDLIB
     dens). Dallas. Texas 08/04/83                            Payment Procedures are Needed to Ensure Com-
     5D206230404/4/F/830805 Account Analysis and              pliance with the Prompt Payment Act 08/31/83
     Verification of the Federal Buildings Fund 08/04/83      A30233/9/F/830831 Letter Report-Project NCA
     A30465/7 /F /830805 Letter Report - Review of            00700, U.S. Courthouse and Federal Building, First
     Award, Administration and Termination of Guard           and San Carlos Streets. San Jose. California, Con-
     Service Contracts with Southern Investigation and        struction Contract No. GS-09B-00700-SF 08/31/83
     Recovery. Inc .. and Termination of Guard Service Con-   A30414/4/F /830831 Lessor Maintenance of Gov-
     tracts 08/05/83                                          ernment EqUipment, IRS Service Center. Chamblee.
     A30695/4/F/830809 Letter Report - Inspection of          Georgia 08/31/83
     Region 7 Repair and Alteration Contracts Awarded to      A30238/5/F /830906 Excess and Surplus Real Prop-
     Mil-Pak Co .. Inc .. by Real Property Contracts Divi-    erty, Region 5 09/06/83
     sion 08/09/83
                                                              A30545/4/F /830906 Letter Report - Federal Protec-
     6G-20509-00-21 Letter Report - GSA's Audit Fol-          tive Service Division's Security System Manage-
     lowup System 08/11/83                                    ment 09/06/83
     A30245/4/F/830812 Cash Management Practices.             A30812/8/F/830908 Letter Report-Proposed Award
     Finance Division. Region 4 08/12/83                      of Lease, WM Capital and Management Corp .. Lease
     A30461/W/F/830817 Letter Report - Space As-              No. GS-08P-11924 09/08/83
     signment Between the League of Federal Recreation        NCPBSB1382/5/F /830908 Inspection Review of
     Associations. Inc. and Diverse Brokers. Inc. 08/17/83    Miscellaneous Improvements, Federal Building and
     S-PBS-C-19-82 Letter Report - Inspection of New          U.S. Courthouse. Milwaukee, Wisconsin 09/08/83
     Construction. Federal Building. Savannah. Georgia.       A30655/4/F /830912 Letter Report - Inspection Re-
     AlE Contract No. GS-04B-07222 (NEG) 08/19/83             view of Region 7 Initial Space Alteration for Depart-
     A30781/W /F /830822 Letter Report - Preaward             ment of Labor Federal Building, 2320 La Branch Street.
     Lease Review, 5150 and 5176 Eisenhower Avenue.           Houston. Texas 09/12/83
     Alexandria, Virginia, Lease No. GS-11B-30015             A30010/3/F /830913 Letter Report - Review of Ap-
     08/22/83                                                 praisal Staff. Region 3 09/13/83
     A30674/7/F /830822 Letter Report - Proposed              5D206210909/9/F /830915 Federal Building Fund.
     Award of Lease. R. L. Gibson. Lessor, Socorro. New       Region 9 09/15/83
     Mexico. Lease No. GS-07B-11674 08/22/83
                                                              6J-00130-00-21 Follow-on Review of the Interagency
     A30752/W /F/830822 Letter Report -Inspection of          Audit of Property Management 09/16/83
     Lease Alteration Project A1607978, Alterations to
                                                              A30622/R/F /830919 Letter Report - Review of
     Room 12E15. Zachary Taylor Building. Arlington. Vir-
                                                              Holdover Leases and Lease Extensions 09/19/83
     ginia, Lease No. GS-03B-05735 08/22/83
     A3025317/F /830823 Letter Report - Review ofRe-
40   gional Real Property Operations 08/23/83
A30170/5/F /830921 Inspection of Miscellaneous
Improvements, Federal Building and U.S. Courthouse,
Detroit, Michigan, Contract No. GS-05BC-81799
09/21/83
A30854/3/F /830921 Letter Report-Preaward Lease
Review (Second Review), 1771 Tomlinson Road, Phila-
delphia, Pennsylvania, Lease No. GS-03B-30035
09/21/83
A30663/W /V/830922 Letter Report - Limited Re-
view of the External Services Branch, Finance Divi-
sion 09/22/83
A30403/2/F /830923 Review of Time Recording
Practices at the Federal Plaza Buildings Management
Field Office 09/23/83
A30858/9/F /830926 Letter Report-Preaward Au-
dit of a New Lease, 5721 West Century Boulevard, Los
Angeles, California 09/26/83
A30590/W /F /830928 Letter Report - Alleged Un-
derbillings of the White House and Applicable Stan-
dard Level User Charge Rates 09/28/83
A30523/2/F /830929 Review of Procedures for the
Cashing of Checks Collected from the Sale of Govern-
ment Vehicles 09/29/83
A30790/Z/F /830930 Letter Report - Audit of GSA
Office Automation Procurement 09/30/83
A30860/7/F/830930LetterReport-ProposedAward
of Lease Extension, Summit Tower, 5835 Callaghan
Road, San Antonio, Texas, Lease No. GS-07B-10283
09/30/83
A30533/6/P/830930 Survey of GSA's Financial
Management Systems 09/30/83




                                                       41
     APPENDIX II                                                 . The National Audiovisual Center (NAC) of the Nation-
                                                                   al Archives and Records Service reduced its delin-
                                                                   quent accounts significantly by identifying and
     Delinquent Debts                                              bringing under control the circumstances which cre-
     GSA's Office of Comptroller provided the information          ated some of the prior year delinquencies. including
     presented herein.                                             those associated with fraud by the previous financial
     GSA Efforts to Improve                                        officer. NAC has developed a collection system which
                                                                   involves a series of letters to contact the accounts and
     Debt Collection-                                              the creation of a file to document each account for
     During the period April 1 through September 30,               future audit. NAC is reluctant to write-off large
     1983, specific activities undertaken by the GSA to            unsubstantiated amounts since this method was used
     improve debt collections and to reduce the amount of          to perpetrate fraud. NAC hopes that staffing changes
     debts written off as uncollectible have been in the areas     and upgrading the collection function will reduce
     of (1) Personal Property Sales. (2) Claims Collection.        delinquencies and write-offs.
     (3) Upgrading Collection Functions. and (4) Enhance-
                                                                   The NEAR Multi Fund Accounts Receivable System
     ments to the National Electronic Accounting and               has been developed and its phased implementation
     Reporting (NEAR) System.                                      begins in October 1983. This system is designed to
     After an extensive evaluation of its current payment          process, record, classify and summarize financial
     policy for personal property sales, the Office of Prop-       events related to receivable activity occurring from the
     erty Management, Federal Supply and Services,                 time of billing through the eventual liquidation of the
     directed that effective August 1. 1983, personal checks       receivable. A major benefit of the new system is that it
     were no longer acceptable. Acceptable forms of pay-           provides for and maintains unique data elements to
     ment are limited to cash, cashier's checks, irrevocable       meet cash management and debt collection require-
     letters of credit, money orders, traveler's checks and        ments.
     government checks. This new policy improves debt
     collections and reduces write-offs by eliminating a          Non-Federal Accounts Receivable
     source of potential bad debts, i.e., returned checks.        Because GSA is currently operating under a manual
     In July 1983, procedures for preparing the Claims Col-       system, data on non-Federal receivables for the period
     lection Litigation report were sent to all Regional          April 1, 1983 through September 30, 1983 were not
     Finance Directors. This report is required for all claims    available at the time of publication. Consequently, six
     referred to the Department of Justice for litigation         month data for the period January 1, 1983 through June
     action. The importance of having a good address for          30,1983 is provided.
     the debtor and a current credit report was emphasized        As of June 30, 1983, total delinquent non-Federal
     by Justice. The Central Office Credit and Finance            accounts receivable were $10.2 million. The delin-
     Branch is looking into improving the quality of credit       quency rate was 10 percent compared to 14 percent
     reports and skip trace services.                             reported for the quarter ended December 31, 1982.


                                                     As of                      As of
                                                December 31, 1982            June 30,1983            Difference
     Total Amounts
     Due GSA                                        $64,009,674              $97,663,454            ($33,653,780)
     Amount Delinquent                              $ 9,082,377              $10,219,703            ($ 1,137,326)
     Total Amount Written Off as
     Uncollectible Between 12/31/82                                              $377,475
     and 6/30/83




42
